i
APPENDIX TABLE OF CONTENTS
Page
APPENDIX A
United States Court of Appeals Opinion,
United States v. Cotto-Flores, 970 F.3d 17 (1st Cir. 2020) ..................... App 1
APPENDIX B
United States District Court Opinion and Order on Motion to Dismiss,
United States v. Cotto-Flores, Crim. No. 16-206 (D.P.R. 2016) ............. App 71
APPENDIX C
United States Court of Appeals Order on Rehearing,
United States v. Cotto-Flores, No. 18-2013, (09/09/2020) ................. App 76
APPENDIX D
United States Court of Appeals Mandate,
United States v. Cotto-Flores, No. 18-2013, (09/16/2020) ................. App 78
APPENDIX E
Petitioner’s First Motion to Dismiss,
United States v. Cotto-Flores, Crim. No. 16-206 (D.P.R. 2016) ........ App 79
APPENDIX F
Petitioner’s Second Motion to Dismiss,
United States v. Cotto-Flores, Crim. No. 16-206 (D.P.R. 2016) ........ App 94

Case: 18-2013

Document: 00117626826

Page: 1

Date Filed: 08/10/2020

Entry ID: 6359047

APP 1

United States Court of Appeals
For the First Circuit
No. 18-2013
UNITED STATES OF AMERICA,
Appellee,
v.
YAIRA T. COTTO-FLORES,
Defendant, Appellant.

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
[Hon. Daniel R. Domínguez, U.S. District Judge]

Before
Howard, Chief Judge,
Torruella and Thompson, Circuit Judges.

Luis Rafael Rivera-Rodríguez, with whom Allan Amir RiveraFernández was on brief, for appellant.
Julia M. Meconiates, Assistant United States Attorney, with
whom Rosa Emilia Rodríguez-Vélez, United States Attorney, and
Mariana E. Bauzá-Almonte, Assistant United States Attorney, Chief,
Appellate Division, were on brief, for appellee.

August 10, 2020

Case: 18-2013

Document: 00117626826

Page: 2

Date Filed: 08/10/2020

Entry ID: 6359047

APP 2
THOMPSON, Circuit Judge.

Once again, we are called upon

to explain how a federal government in which Puerto Ricans have no
vote may regulate them more extensively than it can most every
other American citizen.

Bound by our precedent, here we go.

One fateful day in March 2015, Yaira Taines CottoFlores, then a 26-year-old English teacher, drove a 14-year-old
student to a motel in San Lorenzo, Puerto Rico and had sex with
him.

That was a crime.

See P.R. Laws Ann. tit. 33, §§ 4770, 4772.

And to anyone familiar with our federal system of government, which
trusts the states to handle most local criminal offenses (and
thereby protects their citizens from federal overreach), it might
have seemed like a case for Puerto Rico to prosecute and punish.
After all, "[p]erhaps the clearest example of traditional state
authority is the punishment of local criminal activity."
United States, 572 U.S. 844, 858 (2014).

Bond v.

By limiting federal

jurisdiction over local criminal conduct, and leaving room for
state prosecutors to exercise discretion, the Constitution not
only protects states' "sovereign" policy choices; it safeguards
"the liberty of the individual from arbitrary power."
65.

Id. at 864–

It gives people "within a State" the right to be free from

federal prosecution for "laws enacted in excess" of Congress's
delegated "governmental power[s]," Bond v. United States, 564 U.S.
211, 222, 225 (2011), powers that are carefully "limited" within
the fifty states, United States v. Morrison, 529 U.S. 598, 607,

- 2 -

Case: 18-2013

Document: 00117626826

Page: 3

Date Filed: 08/10/2020

Entry ID: 6359047

APP 3
618 (2000) ("The regulation and punishment of intrastate violence
that is not directed at the instrumentalities, channels, or goods
involved in interstate commerce has always been the province of
the States.").

But not in Puerto Rico.

As the Supreme Court frequently reminds us, Puerto Rico
is not a "State" but part of the "Territory or other property
belonging to the United States."

Harris v. Rosario, 446 U.S. 651,

651 (1980) (quoting U.S. Const., Art. IV, § 3, cl. 2) (emphasis
added).

For that reason, in important ways, the U.S. government

can treat the island and its residents differently.

See id.;

Puerto Rico v. Shell Co., 302 U.S. 253, 257 (1937) (citing Balzac
v. Porto Rico, 258 U.S. 298, 304, 205 (1922)); Franklin Cal. TaxFree Tr. v. Puerto Rico, 805 F.3d 322, 344–45 (1st Cir. 2015); see
also below at 64-67 and cases cited.

Unfortunately for Cotto,

that's just what happened here.
After

an

investigation,

federal

prosecutors

charged

Cotto in the United States District Court for the District of
Puerto Rico with transporting a minor "in interstate or foreign
commerce, or [as relevant here] in any commonwealth, territory or
possession of the United States" with the intent to engage in
criminal sexual activity — a federal crime under the Mann Act of
1910 (as amended) that carries a mandatory minimum sentence of ten

- 3 -

Case: 18-2013

Document: 00117626826

Page: 4

Date Filed: 08/10/2020

Entry ID: 6359047

APP 4
years in prison. 18 U.S.C. § 2423(a).1 Cotto was tried, convicted,
and sentenced to ten years in federal prison.
She makes four main arguments.

She now appeals.

First, she contends that

§ 2423(a), like its counterpart covering adult victims, see United
States v. Maldonado-Burgos, 844 F.3d 339, 349–50 (1st Cir. 2016)
(construing 18 U.S.C. § 2421(a)), only applies to transportation
in "interstate or foreign commerce" with respect to Puerto Rico
(that is, to travel to or from the island); and since she never
left Puerto Rico with the victim, the drive wasn't a federal crime.
Second, even if § 2423(a) covers intra-Puerto Rico travel, there
was insufficient evidence to prove she drove the victim anywhere
— even within Puerto Rico.

Third, the judge confused the jury by

explaining the elements of the Puerto Rico crimes (of "sexual
assault" and "lewd acts") the government alleged she'd intended to
commit at her destination.

And fourth, the judge should not have

let the victim testify by two-way videoconference, which violated
Cotto's Sixth Amendment right to confront her accuser in person.

1

In a related case heard on the same day as this one, see
United States v. Montijo-Maysonet, No. 18-1640, defense counsel
reported that Puerto Rico is the only place where the government
has prosecuted wholly local conduct like Cotto's under § 2423(a),
based on her search of the judiciary's Public Access to Electronic
Records system. When we followed up during oral argument in this
case, the government responded that it was not aware of any such
case brought in any other United States territory outside of Puerto
Rico.
- 4 -

Case: 18-2013

Document: 00117626826

Page: 5

Date Filed: 08/10/2020

Entry ID: 6359047

APP 5
Here are the spoilers.
Cotto's gripes.

Namely:

We disagree with all but one of

§ 2423(a)'s ban on transporting a minor

to commit a sex crime, unlike § 2421(a)'s general prohibition,
applies

to

transportation

within

Puerto

Rico,

which

is

a

"commonwealth . . . of the United States" under the statute; there
was ample evidence to find Cotto guilty; and the judge properly
instructed the jury on the local crimes Cotto allegedly drove the
victim to the motel to commit.

However, we hold that the judge

violated Cotto's Sixth Amendment right to in-person confrontation
when he allowed the victim to testify by two-way close-circuit
television ("CCTV") under a misreading of Maryland v. Craig, 497
U.S. 836, 855–56 (1990), and without making the specific "on the
record" findings that 18 U.S.C. § 3509(b)(1)(C) and Craig require.
On these unique facts, we conclude that the appropriate remedy is
to reverse Cotto's conviction and remand for a new trial.
HOW WE GOT HERE
The Crime2
Cotto

started

teaching

at

Escuela

Manuel

Torres

Villafañe, a public school in San Lorenzo, Puerto Rico, in August
2015.

Before long, other teachers started to notice that a 14-

year-old ninth grader — we'll call him "YMP" — wasn't finishing

2

Since Cotto makes a sufficiency challenge, we tell the story
from the government's perspective so far as the evidence reasonably
supported the inferences the government draws. See United States
v. Tanco-Baez, 942 F.3d 7, 15 (1st Cir. 2019).
- 5 -

Case: 18-2013

Document: 00117626826

Page: 6

Date Filed: 08/10/2020

Entry ID: 6359047

APP 6
his schoolwork and would often skip class to spend time alone with
Cotto.

One day, a teacher walked by Cotto's classroom and saw her

alone with YMP holding hands.
of the iceberg.

As it turns out, that was the tip

By November, Cotto and YMP were messaging each

other constantly through WhatsApp (the smartphone application).
Cotto told YMP that she loved him, that "if you were older, I would
already be by your side," and proposed that they have sex.

In

January, she planned how to do it without getting caught:

"I

prefer to go into that motel than out front in the car because
it's not safe," she wrote.

She told him she'd take steps to make

sure she didn't get pregnant.

She also bought him gifts — facial

creams and an expensive watch for Valentine's day — and left love
notes in his school bag.

All the while, Cotto stressed the need

to keep their relationship hidden.

"I have left a lot for you,"

she messaged him, "and risk myself every day, to losing even my
job."

"We have to hide babe" (she wrote); "[i]f your mom makes a

complaint, well, then the biggest scandal in the world explodes."
On February 3, 2016, they went to a nearby motel and had sex for
the first time.
A month later, on March 1, 2016, YMP told a school staff
member that he needed to leave early to go to the barbershop and
his grandmother's house.

In reality, just after noon, he walked

to the restaurant La Casa de Abuela (which, to be fair, translates
to "Grandmother's House"), where he and Cotto had planned for her

- 6 -

Case: 18-2013

Document: 00117626826

Page: 7

Date Filed: 08/10/2020

Entry ID: 6359047

APP 7
to pick him up.

YMP testified that about five minutes after he

got to the restaurant, Cotto arrived in her gray Kia Rio, YMP got
into the passenger seat, and they drove to Motel Oriente.

When

they got there, Cotto drove into the carport and paid through a
window.

They went to a room on the second floor and had sex.

Meanwhile, tipped off that something was up, the school social
worker

and

a

volunteer

went

to

the

barbershop

and

YMP's

grandmother's house and learned that YMP hadn't been to either.
Around three hours later, Cotto dropped off YMP on a road near the
restaurant and he walked back to school, where the principal and
YMP's mother were waiting for him.

Initially, YMP told those

adults and his friends that he hadn't been with Cotto that day.
But later, YMP revealed that he had been.
The Trial
Cotto was charged under 18 U.S.C. § 2423(a), which (along
with §§ 2421–24) codifies the Mann Act of 1910, Pub. L. No. 61–
277, § 2, 36 Stat. 825 (1910), as amended in the Protection of
Children from Sexual Predators Act of 1998, Pub. L. No. 105–314,
§ 103, 112 Stat. 2974, 2976 (1998) (the "Protect Act").3

Section

2423(a) provides that anyone "who knowingly transports" someone
under eighteen years old "in interstate or foreign commerce, or in

3

We chronicled the post-1910 amendments to the Mann Act in
Maldonado-Burgos, 844 F.3d at 341 n.3.

- 7 -

Case: 18-2013

Document: 00117626826

Page: 8

Date Filed: 08/10/2020

Entry ID: 6359047

APP 8
any commonwealth, territory or possession of the United States
with intent that [the minor] engage in prostitution, or in any
sexual activity for which any person can be charged with a criminal
offense, shall be fined . . . and imprisoned not less than 10 years
or for life."
the

18 U.S.C. § 2423(a).

indictment,

arguing

both

Cotto twice moved to dismiss

times

that

§

2423(a)

requires

transportation across state or territorial lines and doesn't cover
trips from one place to another within Puerto Rico.

But the judge

denied both motions, finding that Puerto Rico is a "commonwealth"
within the meaning of the Act.

See United States v. Cotto-Flores,

No. Cr. 16-206, 2016 WL 5818476, at *2–3 (D.P.R. Oct. 5, 2016).
Having upheld the indictment, the judge set the case for trial.
Several days before trial, the government filed a motion
to have YMP testify by two-way closed-circuit television ("CCTV")
under 18 U.S.C. § 3509(b) (permitting that procedure if the
government shows the victim can't testify in the defendant's
presence

"because

established

a

of

fear"

"substantial

or

because

likelihood"

expert

testimony

(s)he

"would

emotional trauma from testifying," among other reasons).4

4

has

suffer
Cotto

Section 3509(b)(1)(D) describes how the procedure works:
essentially, it's a two-way videoconference.
The witness, the
prosecutor, and the defendant's attorney go to a separate room,
while the judge, jury, and defendant stay in the courtroom. The
attorneys for each side then question the witness in the separate
room (conducting direct and cross examination) while a camera
transmits the live video/audio feed of the minor to a

- 8 -

Case: 18-2013

Document: 00117626826

Page: 9

Date Filed: 08/10/2020

Entry ID: 6359047

APP 9
opposed

the

request,

arguing

that

remote

testimony

wasn't

necessary and would violate the Sixth Amendment Confrontation
Clause; in her view, YMP had to testify in open court in Cotto's
presence.

But the judge disagreed.

Long story short (we'll give

you the details when the time comes), after interviewing YMP in
chambers, the judge found YMP would be unable to testify in court
in front of Cotto, granted the government's motion, and permitted
YMP to testify via two-way CCTV.
So

at

trial,

the

Assistant

United

States

Attorney

("AUSA" for short) and Cotto's attorney questioned YMP in a
separate room, with his testimony streamed via CCTV to Cotto, the
judge,

and

the

§ 3509(b)(1)(D).
id.

jury

in

the

courtroom.

See

18

U.S.C.

YMP could see Cotto and she could see him.

See

He testified to the WhatsApp messages, his relationship with

Cotto, the trip to the motel, and the sex.

In her defense, Cotto

called one of YMP's classmates, who testified that he saw YMP leave
school that day and get into a white car, not Cotto's car.

But

based on YMP's testimony, along with that of two other teachers,
a school volunteer, the school social worker, the school director,

monitor/speaker in the courtroom, where the defendant, judge,
jury, and the public can see and hear the minor testify.
Id.
Meanwhile, thanks to another camera in the courtroom, the minor
can see a live video stream of the defendant (on a monitor in the
separate room) and hear the judge through a speaker while (s)he
testifies. Id. The defendant must also be given a way to privately
communicate with his defense attorney during the testimony. Id.

- 9 -

Case: 18-2013

Document: 00117626826

Page: 10

Date Filed: 08/10/2020

Entry ID: 6359047

APP 10
YMP's mother, and several government investigators, the jury found
Cotto guilty.
After the last government witness, then again after the
guilty verdict, Cotto moved for a judgment of acquittal under Rule
29 of the Federal Rules of Criminal Procedure.

She repeated her

claim that § 2423(a) requires the defendant to have transported
the minor across state or territorial lines, and she urged that
even if § 2423(a) applied to drives from here to there within
Puerto Rico, there was no evidence Cotto drove YMP to the motel as
charged.

The judge denied those motions and sentenced her to the

mandatory minimum of ten years in prison.

Needless to say, Cotto

appealed.
ANALYSIS
Applying § 2423(a) within Puerto Rico
On appeal, as she did below, Cotto first argues that her
case should never have gone to trial because § 2423(a) does not
apply to the conduct she was charged with — transporting a minor
within Puerto Rico to commit a sex crime.

In the fifty states,

that section only applies if the defendant transported the victim
"in interstate or foreign commerce."

In Cotto's view, the same is

true in Puerto Rico, which is (since 1952) a "self-governing
Commonwealth" vested with "state-like autonomy."

United States v.

Maldonado-Burgos, 844 F.3d 339, 340, 348–50 (1st Cir. 2016) (first
quote quoting Puerto Rico v. Sánchez Valle, 136 S. Ct. 1863, 1874

- 10 -

Case: 18-2013

Document: 00117626826

Page: 11

Date Filed: 08/10/2020

Entry ID: 6359047

APP 11
(2016)).

In fact, she reminds us, in Maldonado-Burgos, we held

that another section of the Mann Act (18 U.S.C. § 2421(a), which
penalizes transporting anyone "in interstate or foreign commerce,
or in any Territory or Possession of the United States" to commit
a sex crime) did not apply to travel within Puerto Rico.
at 349–50.

844 F.3d

Cotto urges us to read § 2423(a) in the same way.

If

she's right, then the judge should have dismissed the indictment,
which never alleged Cotto took YMP beyond Puerto Rico.

On the

other hand, the government insists the plain text of § 2423(a)
(which covers the transportation of a minor "in any commonwealth,
territory, or possession of the United States" to commit a sex
crime) shows that unlike its more general cousin, § 2423(a) covers
intra-Puerto Rico transportation.
Despite Cotto's objections, we have to agree with the
government.

Cotto has this much right though:

given its promise

to grant Puerto Rico state-like status, we don't lightly conclude
that Congress intended to exercise a police power — like the power
to define, prosecute, and punish local crime — in Puerto Rico that
the law elsewhere reserves for state governments.

See Cordova &

Simonpietri Ins. Agency Inc. v. Chase Manhattan Bank N.A., 649
F.2d 36, 42 (1st Cir. 1981); see also Morrison, 529 U.S. at 618
("Indeed, we can think of no better example of the police power,
which the Founders denied the National Government and reposed in
the States, than the suppression of violent crime and vindication

- 11 -

Case: 18-2013

Document: 00117626826

Page: 12

Date Filed: 08/10/2020

Entry ID: 6359047

APP 12
of its victims.").

In this case, however, the plain words of the

Protect Act (which amended § 2423(a) to specifically add the word
"commonwealth"), compel that conclusion.

So unlike § 2421(a),

§ 2423(a) applies to a defendant who transports his or her victim
wholly within Puerto Rico.
Like any question of statutory interpretation, whether
and how a statute applies to Puerto Rico depends not only on the
"words in the statute," but also "the context, the purposes of the
law, and the circumstances under which the words were employed."
Maldonado-Burgos, 844 F.3d at 347 (quoting Cordova, 649 F.2d at
38).
into

So here, as in Maldonado-Burgos, Puerto Rico's transition
a

"self-governing

analysis.

Commonwealth"

Id. at 340–41.

sets

the

stage

for

our

To start then, we'll retrace that

historical current and reinforce the strong tug it exerts against
the government when it claims that a federal law regulates conduct
in Puerto Rico that the law doesn't reach in the states.
at 342–43 (citing Cordova, 649 F.2d at 42).

See id.

With that background

in place, we'll come back to the statute's text.
Puerto Rico's Commonwealth Status under Federal Statutes
Before Puerto Rico became a "commonwealth," that is, for
its first fifty-four years as a United States territory, its
internal affairs were almost entirely "subject to the command of
Congress," Cordova, 649 F.2d at 39, and a local government largely
run by federal appointees, see Sánchez Valle, 136 S. Ct. at 1868.

- 12 -

Case: 18-2013

Document: 00117626826

Page: 13

Date Filed: 08/10/2020

Entry ID: 6359047

APP 13
Starting in 1900 (under the Foraker Act), "[t]he U.S. President,
with the advice and consent of the Senate, appointed the governor,
supreme court, and upper house of the legislature," although "the
Puerto Rican people elected the lower house themselves." Id. Over
time,

Congress

gave

the

Puerto

Rican

people

limited

self-

government over local affairs but kept a firm grip on levers of
colonial control.

See Cordova, 649 F.2d at 39.

In 1917, the Jones

Act granted Puerto Ricans U.S. citizenship and the right to elect
both houses of the local legislature.
Ct.

at

1868.

territory's

most

But

the

U.S.

powerful

See Sánchez Valle, 136 S.

President

executive

still

and

appointed

judicial

the

officers

(including the governor, the attorney general, the commissioner of
education, and the justices of the Puerto Rico Supreme Court);5
and federal law required the Puerto Rican legislature to report
all its acts to the federally-appointed governor and to Congress,
which could veto them.

See Cordova, 649 F.2d at 39; Jones Act of

1917, §§ 12–13, 34, 40, 39 Stat. 951, 960–61 (Mar. 2, 1917).
Moreover, "in cases of conflict, Congressional statute, not Puerto

5

In 1947, Congress amended the Jones Act to let Puerto Ricans
elect the governor "and granted that Governor the power to appoint
all cabinet officials," but the United States "President retained
the power to appoint (with Federal Senate confirmation) judges, an
auditor, and the new office of Coordinator of Federal Agencies."
Fin. Oversight & Mgmt. Bd. for Puerto Rico v. Aurelius Inv., LLC,
140 S. Ct. 1649, 1660 (2020) (citing Act of Aug. 5, 1947, ch. 490,
§§ 1, 3, 61 Stat. 770, 771).

- 13 -

Case: 18-2013

Document: 00117626826

Page: 14

Date Filed: 08/10/2020

Entry ID: 6359047

APP 14
Rico law, would apply no matter how local the subject."

Cordova,

649 F.2d at 39 (citing the Jones Act, §§ 37, 57, 39 Stat. at 964,
968).
The tectonic plates shifted in 1950, which marked "a
significant change in the relation between Puerto Rico and the
United States."

Id.

That year, under mounting pressure from

Puerto Rico's leaders and the international community, Congress
authorized Puerto Rico to call a convention to draft its own
constitution, which would take effect when ratified by popular
referendum in Puerto Rico and approved by Congress.

See Act of

July 3, 1950, Pub. L. 600, § 1, 64 Stat. 319 ("[F]ully recognizing
the principle of government by consent, this Act is now adopted in
the nature of a compact so that the people of Puerto Rico may
organize a government pursuant to a constitution of their own
adoption.").

Two years later, when Congress approved the new

constitution, it repealed the inconsistent provisions in the Jones
Act

and

Relations

rechristened
Act

Constitution)

(the
is

now

the

remainder

"PRFRA"),
the

the

which

cornerstone

Puerto

(along
of

relationship with the federal government.
Stat. at 320.

the

Rico

with

Federal

the

island's

U.S.
legal

See id. §§ 4, 5, 64

Puerto Rico thus emerged from the process "a new

kind of political entity, still closely associated with the United
States but governed in accordance with, and exercising self-rule
through, a popularly ratified constitution."

- 14 -

Sánchez Valle, 136

Case: 18-2013

Document: 00117626826

Page: 15

Date Filed: 08/10/2020

Entry ID: 6359047

APP 15
S. Ct. at 1874.

Or as we've put it, "Puerto Rico's status changed

from

a

that

of

Commonwealth":

mere

territory

to

the

unique

status

of

the name the new constitution and the statute

approving it gave the new polity.

Cordova, 649 F.2d at 41; see

P.R. Const. art. I, § 1 ("The Commonwealth of Puerto Rico is hereby
constituted."); Act of July 3, 1952, Pub. L. 447, 66 Stat. 327
(approving "the constitution of the Commonwealth of Puerto Rico").
The Puerto Rico constitutional convention chose that
label

("commonwealth")

because

in

the

delegates'

view,

it

reflected Puerto Rico's "legislative autonomy in local matters."
Cordova, 649 F.2d at 40.

As the convention explained:

the single word 'commonwealth', as currently used,
clearly defines the status of the body politic
created under the terms of the compact existing
between the people of Puerto Rico and the United
States, i.e., that of a state which is free of
superior authority in the management of its own
local affairs but which is linked to the United
States of America and hence is a part of its
political system in a manner compatible with its
federal structure.
P.R. Const. Convention Res. 22 (P.R. 1952).
Congress ratified that understanding when it approved
the Puerto Rico constitution and passed the PRFRA, acts which
(according

to

the

Supreme

Court)

"relinquished

[Congress's]

control over [Puerto Rico's] local affairs" and granted the island
"a measure of autonomy comparable to that possessed by the States."
Sánchez Valle, 136 S. Ct. at 1874 (quoting Examining Bd. of Eng'rs,

- 15 -

Case: 18-2013

Document: 00117626826

Page: 16

Date Filed: 08/10/2020

Entry ID: 6359047

APP 16
Architects and Surveyors v. Flores de Otero, 426 U.S. 572, 597
(1976)); see also Calero-Toledo v. Pearson Yacht Leasing Co., 416
U.S. 663, 673 (1974) (holding that Puerto Rico was a "State" under
the federal statute requiring that a three-judge panel convene to
consider any challenge to a state statute; reasoning that the
Commonwealth, like a state, is "sovereign over matters not ruled
by the [U.S.] Constitution," unlike "a territory whose local
affairs are subject to congressional regulation"); Cordova, 649
F.2d

at

40

(reviewing

the

1950–52

legislative

history

and

concluding that "Commonwealth represents the fulfillment of a
process of increasing self-government over local affairs by the
people of Puerto Rico" and an "end" to its "subordinate status").
And in 1953, the executive branch assured the United Nations that
Public Law 600, the PRFRA, and the Puerto Rico constitution gave
the new commonwealth the authority to respond to Puerto Rican
voices free from federal "interference with matters of local
government."6

6

In 1953, the U.S. State Department, seeking to have Puerto
Rico classified as a "self-governing territory" (which freed the
United States from certain international obligations with respect
to the island), wrote in a memorandum to the United Nations that
"Congress ha[d] agreed that Puerto Rico shall have, under [its]
Constitution, freedom from control or interference by the Congress
in respect of internal government and administration, subject only
to compliance with applicable provisions of the Federal
Constitution, the [PRFRA] and the acts of Congress authorizing and
approving the Constitution, as may be interpreted by judicial
decision." Cordova, 649 F.2d at 40–41 & n.28. And it assured the

- 16 -

Case: 18-2013

Document: 00117626826

Page: 17

Date Filed: 08/10/2020

Entry ID: 6359047

APP 17
In at least one way, these broad brushstrokes exaggerate
the rights the 1950–52 Acts granted Puerto Rico and its people.
Under the U.S. Constitution, Puerto Rico is still a "Territory,"
meaning that Congress (acting under its power to "make all needful
Rules and Regulations respecting the Territory . . . belonging to
the United States," U.S. Const., Art. IV, § 3, cl. 2), "may treat
Puerto Rico differently from the States so long as there is a
rational basis for its actions."

United States v. Vaello-Madero,

956 F.3d 12, 20 (1st Cir. 2020) (quoting Harris, 446 U.S. at 651–
52); Franklin Cal. Tax-Free Tr., 805 F.3d at 344 (holding that
"the limits of the Tenth Amendment do not apply to Puerto Rico"
because it is "still constitutionally a territory" and its "powers
are not 'those reserved to the States' but those specifically
granted to it by Congress under its constitution" (quoting U.S.
Const. amend. X)).

Before 1952, we held (following Supreme Court

precedent) that Congress may use that power under the Territory
Clause to regulate purely local crime or other internal affairs in
Puerto Rico that Congress could not reach in the states.

See

members that "[t]hose laws which directed or authorized
interference with matters of local government by the Federal
Government ha[d] been repealed."
Id. at 41 n.28.
Presidents
Truman and Kennedy made similar statements in other official
memoranda.
See id. at 40–41 (quoting President Truman's
recognition, in transmitting the draft constitution to Congress,
that its approval would vest "full authority and responsibility
for local self-government . . . in the People of Puerto Rico").

- 17 -

Case: 18-2013

Document: 00117626826

Page: 18

Date Filed: 08/10/2020

Entry ID: 6359047

APP 18
Crespo v. United States, 151 F.2d 44, 45 (1st Cir. 1945).

We

assume (because Cotto does not dispute) that even after 1952,
Congress may still regulate such intra-Puerto Rico conduct, even
if doing so would break the promises it made that year.

See below

at 68-70; United States v. Lopez Andino, 831 F.2d 1164, 1172–75
(1st Cir. 1987) (concluding that the Court in Harris "reaffirmed
the existence of Congress's post-1952 plenary power over Puerto
Rico pursuant to the Territory Clause," and the PRFRA is not a
true "compact" but "merely an Act of Congress" that "does not bind
future Congresses").

But see Fin. Oversight & Mgmt. Bd. for P.R.

v. Aurelius Inv., LLC, 140 S. Ct. 1649, 1677–83 (2020) (Sotomayor,
J.,

concurring)

(arguing

that,

to

the

contrary,

the

1952

legislation may well have been a "compact" that may place limits
on Congress's power to regulate Puerto Rico).7
In other words, we need not decide whether the 1952
legislation restricts Congress's power to legislate in Puerto
Rico.

Rather, "this case requires us [only] to answer a question

of congressional intent," Maldonado-Burgos, 844 F.3d at 345:

what

did Congress mean to do when it amended § 2423(a) to include the

7

Thus, in case there's any room for doubt, we need not and
do not decide that the 1952 legislation constitutes a "compact"
between the United States and Puerto Rico that differs from a
regular statute; and we do not suggest that there is some basis
other than the Territory Clause on which Congress may criminalize
illicit transportation within Puerto Rico that does not affect
interstate commerce. Contra below at 70.
- 18 -

Case: 18-2013

Document: 00117626826

Page: 19

Date Filed: 08/10/2020

Entry ID: 6359047

APP 19
word "commonwealth"?

So for present purposes, what's important is

that Congress's commitment in the PRFRA to give Puerto Rico statelike autonomy in its local affairs, see Sánchez Valle, 136 S. Ct.
at 1874, has at least the force of federal statute, see Lopez
Andino, 831 F.2d at 1174–75 (Torruella, J., concurring), subject
to repeal only by an express statement or clear implication in
later legislation, see Aurelius, 140 S. Ct. at 1677 (Sotomayor,
J., concurring) (quoting Carcieri v. Salazar, 555 U.S. 379, 395
(2009)).

That commitment (as we and the Court have construed it)

forms the backdrop against which Congress now legislates when it
comes to Puerto Rico and "informs Congress's intent" when it does
so.

Jusino Mercado v. Puerto Rico, 214 F.3d 34, 44 (1st Cir.

2000).
Cordova/Maldonado-Burgos
That background plays an especially critical role when,
as here, we're asked to construe another federal statute "to
intervene

more

extensively

into

the

local

affairs

of

post-

Constitutional Puerto Rico than into the local affairs of a state."
Cordova, 649 F.2d at 42.

In such cases, we ask whether the "Act's

framers, if aware of Puerto Rico's current [post-]constitutional
status, would have intended it to be treated as a 'state' or a
'territory' under the Act."
with a corollary:

Id. at 39.

That assumption comes

that, if the enacting Congress was aware of

Puerto Rico's "commonwealth" status and long road to attaining it,

- 19 -

Case: 18-2013

Document: 00117626826

Page: 20

Date Filed: 08/10/2020

Entry ID: 6359047

APP 20
it would have acted with an intent to "fulfill [its] promise" to
grant Puerto Ricans state-like self-rule free from the selective
intervention of a federal government they do not elect.8
Mercado, 214 F.3d at 44.

Jusino

With that pledge in mind, we do not read

statutes "to treat Puerto Rico in one way and the states in another
unless the language of [the] particular statute" or "some other
compelling

reason"

in

its

history demands that result.

structure,

context,

or

legislative

Id. at 42 (anchoring that rule in

§ 9 of the PRFRA, 48 U.S.C. § 734, which we read to "advise[] us
with uncharacteristic bluntness that [Congress] does not intend a
generally applicable statute to regulate Puerto Rico to the full
extent allowed by the Constitution unless it either specifically
singles out Puerto Rico or imposes similar regulations on the
states"); see also Cordova, 649 F.2d at 42 (holding that "there
would have to be specific evidence or clear policy reasons embedded
in [a] statute to demonstrate" that Congress meant it to regulate
more local conduct in "post-Constitutional Puerto Rico" than it
does in the states).9

8

Despite Public Law 600's peon to "government by consent,"
Puerto Rican residents do not have voting representatives in
Congress, which can nonetheless regulate them; and to boot, they
cannot vote for President.
See Igartúa de la Rosa v. United
States, 626 F.3d 592, 596 (1st Cir. 2010).
9

Cordova established this framework in holding that the
Sherman Antitrust Act did not apply to restraints on trade or
commerce taking place wholly within Puerto Rico. 649 F.2d at 42.
- 20 -

Case: 18-2013

Document: 00117626826

Page: 21

Date Filed: 08/10/2020

Entry ID: 6359047

APP 21
In Maldonado-Burgos, we applied that test to § 2421(a)
(which bans the transportation of "any individual in interstate or
foreign commerce, or in any Territory or Possession of the United
States" to commit a sex crime) and held that after 1952, that
section no longer applies to travel wholly within Puerto Rico.
844 F.3d at 346–47.

The government had indicted a man who

transported an 18-year-old woman with a severe mental disability
within Puerto Rico to engage in unlawful sexual activity.

Id. at

340. The district court dismissed the indictment. Id. On appeal,
the government argued that the statute applied to Puerto Rico as
a "Territory or Possession" and covered transportation within it,
as we'd held in 1945.

See id. at 342–43 (citing Crespo, 151 F.2d

at 45 (holding that it could "not be doubted that [§ 2421(a)]
applie[d] to transportation within Puerto Rico," which was "a
territory within the meaning of the Act")).
that

despite

controlled.

the

intervening

The government urged

developments,

Crespo

still

We disagreed; rather, we held that Cordova "blazed a

trail" we had to follow.

Id. at 340.

question Crespo hadn't answered:

As in Cordova, we asked the

whether "the Mann's Act framers,

if aware" of Puerto Rico's "post-Crespo transformation from a
[mere]

United

States

territory

to

the

'self-governing

Commonwealth' it is today," "would have intended it to be treated
as a 'state' or 'territory' under the Act." Id. at 340, 347 (first
quoting Sánchez Valle, 136 S. Ct. at 1874; then quoting Cordova,

- 21 -

Case: 18-2013

Document: 00117626826

Page: 22

Date Filed: 08/10/2020

Entry ID: 6359047

APP 22
649 F.2d at 39).
history,

and

trafficking

the
is

a

Reviewing the statute's text, legislative
government's
"pervasive

policy
problem"

arguments
in

(that

Puerto

human

Rico),

we

nonetheless found no "specific evidence or clear policy reasons
embedded in § 2421(a)" to show that its framers would have meant
to federalize the prosecution of local crime in the Commonwealth
of Puerto Rico.

Id. at 347–50.

Thus, we concluded that § 2421(a)

reaches "only transportation 'in interstate or foreign commerce'
with respect to the island." Id. at 350. In other words, § 2421(a)
reserves for Puerto Rico (as it does for states) the decisions of
when

to

prosecute,

and

how

severely

to

punish,

illicit

transportation that occurs wholly within its borders.
Section 2423(a)
In this case, Cotto urges us to extend Maldonado-Burgos
and hold that § 2423(a) also requires cross-border travel and
doesn't apply to drives from schools to motels within Puerto Rico.
As we outlined in Maldonado-Burgos, however, § 2423(a) defines a
separate crime against a distinct class of victims (minors) and
uses

language

different

from

§

2421(a)'s

"to

identify

the

transportation covered." Id. at 351, n.11. Most damning, in 1998,
Congress amended § 2423(a) to cover illicit transportation "in any
commonwealth, territory, or possession of the United States."

Id.

at 350 n.10 (quoting the Protect Act, Pub. L. No. 105–314, § 103,

- 22 -

Case: 18-2013

Document: 00117626826

Page: 23

Date Filed: 08/10/2020

Entry ID: 6359047

APP 23
112 Stat. 2974, 2976) (emphasis added).10

When it did so (we must

assume), Congress was well "aware of Puerto Rico's [commonwealth]
status," id. at 347, of Cordova, and of the parade of decisions in
which

the

District

of

Puerto

Rico

had

exempted

"'intra-

commonwealth' activities" from several important "statutes which,
by their terms, appl[ied] to 'intra-territory,' but not to 'intrastate,' activities," Cordova, 649 F.2d at 38 & n.6, 42 (listing
decisions holding that the Federal Firearms Act, the Federal
Alcohol Administration Act, and the Sherman Act did not apply to
wholly local activity in Puerto Rico).

See Guerrero-Lasprilla v.

Barr,

(explaining

140

S.

Ct.

1062,

1072

(2020)

that

courts

"normally assume that Congress is 'aware of relevant judicial
precedent' when it enacts a new statute" (quoting Merck & Co. v.
Reynolds, 559 U.S. 633, 648 (2010)).11

10

Against that background,

The Protect Act also amended § 2423(a) to increase the
maximum penalty for violating that section and added enhanced
penalties for repeat offenders. See Pub. L. 105–314, 112 Stat. at
2974.
11 Of course, being one circuit among many, we might not
normally assume that Congress has our caselaw in mind when it
enacts legislation. As other circuits have recognized, however,
given our jurisdiction over appeals from the District of Puerto
Rico, our decisions have an outsized impact on how federal law
applies to Puerto Rico. See Rodríguez v. P.R. Fed. Affairs Admin.,
435 F.3d 378, 382 (D.C. Cir. 2006) (adopting our reasoning in
Jusino Mercado and considering us "the court most expert on Puerto
Rico's status"); see also United States v. Laboy-Torres, 553 F.3d
715, 719 n.3 (3d Cir. 2009) (according our decisions concerning
the application of federal statutes to Puerto Rico "great weight").
In addition, by 1998, Cordova (which was authored by then-Judge
Breyer), had been around for a while, and the Supreme Court had

- 23 -

Case: 18-2013

Document: 00117626826

Page: 24

Date Filed: 08/10/2020

Entry ID: 6359047

APP 24
there's only one plausible reason for the amendment:

to remove

any doubt that § 2423(a) applied to the transportation of minors
in non-state "commonwealths" like Puerto Rico.

See United States

v. Medina-Ayala, 906 F. Supp. 2d 20, 22 (D.P.R. 2012) (concluding
that "[t]here could hardly be a clearer [indication] of purpose
than the specific addition of the word 'commonwealth' to the
existing language of the Mann Act").12
In her effort to resist that conclusion, Cotto makes two
main arguments.

First, she suggests that Congress must expressly

call out "Puerto Rico" in the statute before we can read it to
treat the island differently from the states.

But nothing in the

PRFRA, Cordova, or Maldonado-Burgos lets us disregard Congress's

cited it with approval to describe Puerto Rico's commonwealth
status. See Rodríguez v. Popular Democratic Party, 457 U.S. 1, 8
(1982) (citing Cordova, 649 F.2d at 39–42).
12

Four states (Massachusetts, Pennsylvania, Virginia, and
Kentucky) and the Commonwealth of the Northern Mariana Islands
("CNMI"), all share the same "commonwealth" prefix.
But Cotto
concedes that § 2423(a) doesn't cover transportation wholly within
any state. And for good reason, she does not argue that Congress
added the word "commonwealth" to single out the CNMI, which enjoys
an arguably even stronger presumption than Puerto Rico's that
Congress does not selectively intervene in its local affairs.
See U.S. ex rel. Richards v. De Leon Guerrero, 4 F.3d 749, 754
(9th Cir. 1993) (explaining that when Congress "pass[es]
legislation with respect to the CNMI" that "cannot also be made
applicable to the several States[,] the Northern Mariana Islands
must be specifically named therein for it to become effective in
the Northern Mariana Islands" (quoting U.S.-CNMI Covenant, Pub. L.
94–241, § 105, 90 Stat 263, 264 (Mar. 24, 1976))).

- 24 -

Case: 18-2013

Document: 00117626826

Page: 25

Date Filed: 08/10/2020

Entry ID: 6359047

APP 25
clearly-expressed intent because it failed to use those two magic
words.13

To the contrary, both decisions sought to "effectuate the

intent of the lawmakers" expressed in "the words of the statute"
and

"the

circumstances

under

which

[they]

were

employed."

Maldonado-Burgos, 844 F.3d at 347 (quoting Cordova, 649 F.3d at
38).

In those cases, unlike here, it was far from clear that the

operative text of § 2421(a) and the Sherman Act (reaching conduct
"in any territory or possession of the United States") was meant
to reach intra-commonwealth activity.
plausible

way

constitutional

to

read

Puerto

that

Rico

achieved state-like status.

text:

and

other

And there was another,
to

apply

only

territories

to

that

pre-

hadn't

To resolve the ambiguity, we relied

on a background assumption about Congress's intent — that absent
"specific evidence" or "clear policy reasons" to the contrary,

13

Some laws — including the covenant between the CNMI and the
United States — do say that Congress must recite certain words
before its legislation can encroach on local sovereignty (among
other sensitive areas). See De Leon Guerrero, 4 F.3d at 753–54
(quoting U.S.-CNMI Covenant, Pub. L. 94–241, § 105, 90 Stat 263,
264 (Mar. 24, 1976)). Per our higher-ups, statutes that require
Congress to use such "express references" or "magical passwords"
really create "less demanding interpretive requirement[s]" because
they can't compel courts to "disregard [ ] the will of a later
Congress" conveyed "either expressly or by necessary implication
in a subsequent enactment."
Dorsey v. United States, 567 U.S.
260, 274 (2012) (first quoting Lockhart v. United States, 546 U.S.
142, 149 (2005) (Scalia, J., concurring); then quoting Great N.
Ry. Co. v. United States, 208 U.S. 452, 465 (1908)). So whether
the 1952 Act could have required Congress to say "Puerto Rico" to
regulate its local affairs implicates another question not briefed
here: whether that legislation was more than an ordinary statute
that Congress may repeal without Puerto Rico's consent.
- 25 -

Case: 18-2013

Document: 00117626826

Page: 26

Date Filed: 08/10/2020

Entry ID: 6359047

APP 26
Congress would have meant to treat the Commonwealth like a state.
Maldonado-Burgos, 844 F.3d at 350 (concluding based on the "clear
congressional intent to grant Puerto Rico state-like autonomy"
that "the [Mann] Act's framers, if aware of Puerto Rico's current
constitutional status, would have intended it to be treated as a
'state'" and not a "territory" under § 2421(a) (quoting Cordova,
649 F.3d at 39) (relying on a "general Congressional intent to
grant Puerto Rico state-like autonomy" to reach the same conclusion
under the Sherman Act)); see also Jusino Mercado, 214 F.3d at 42
(explaining that was reasonable to assume Cordova's "default rule
. . . inform[ed] Congress's intent") (emphases all added).
But,

when

"Congress

has

made

its

[contrary]

intent

clear," courts "must give effect to that intent," even if it defies
our settled expectations.

Miller v. French, 530 U.S. 327, 328

(2000) (internal quotation marks omitted); In re Palladino, 942
F.3d 55, 59 (1st Cir. 2019) ("Absent [a] constitutional challenge,
when [we're] confronted with a clear statutory command . . . that
is the end of the matter." (citing TVA v. Hill, 437 U.S. 153, 194
(1978)).

So when a statute like § 2423(a) clearly means to reach

more conduct in Puerto Rico than it does in the states, we have to
enforce it as written, even if it doesn't single out "Puerto Rico"
in so many words.

See Dávila-Pérez v. Lockheed Martin Corp., 202

F.3d 464, 467–68 (1st Cir. 2000)(construing the words "Territory
or Possession outside the continental United States," in light of

- 26 -

Case: 18-2013

Document: 00117626826

Page: 27

Date Filed: 08/10/2020

Entry ID: 6359047

APP 27
the statutory context and legislative history, to cover Puerto
Rico); cf. Gregory v. Ashcroft, 510 U.S. 452, 460, 467 (1991)
(explaining

that

"unmistakably"

despite

clearly

the
to

rule

that

intrude

on

Congress

must

traditional

speak
state

prerogatives, the statute at issue did not have to "mention [state]
judges explicitly" to regulate their qualifications as long as it
was "plain to anyone reading the Act that it cover[ed] judges").
Cordova doesn't license us to nullify Congress's "commonwealth"
amendment; so we have to enforce its only reasonable meaning.
As her fallback, Cotto points to another clause in the
Protect Act, Pub. L. No. 105-314, § 104(a), 112 Stat. at 2976,
codified at 18 U.S.C. § 2426, which triples the maximum penalty
for offenders who violate the updated Mann Act (§§ 2421–24) after
being convicted of a prior sex offense "under State law."

Section

2426(b) provides that "in this section," the term "State" includes
"a State of the United States, the District of Columbia, and any
commonwealth, territory, or possession of the United States."
There you have it, says Cotto:

by defining "commonwealth[s]" as

"states," § 2426(b) shows that Congress meant to treat Puerto Rico
like a state in § 2423(a). But § 2426(b) defines "commonwealth[s]"
as "states" only for the purposes of § 2426 — to broaden the reach
of the repeat-offender penalties.

So Cotto can't use § 2426(b)'s

definition to narrow § 2423(a)'s plain meaning.

Her concession

that Congress used the term "commonwealth" to refer to Puerto Rico

- 27 -

Case: 18-2013

Document: 00117626826

Page: 28

Date Filed: 08/10/2020

Entry ID: 6359047

APP 28
elsewhere in the Protect Act only bolsters our conclusion that it
did the same in § 2423(a).

See Envtl. Def. v. Duke Energy Corp.,

549 U.S. 561, 574 (2007) ("We presume that the same term has the
same meaning when it occurs here and there in a single statute.").
So, like every federal judge in District of Puerto Rico
to have addressed the question, we hold that § 2423(a) applies to
the transportation of a minor within Puerto Rico for the purpose
of committing a sex crime.14
court

did

not

err

in

Given that conclusion, the district

denying

Cotto's

motion

to

dismiss

the

indictment or her motions for judgment of acquittal based on the
lack of evidence that she took YMP outside Puerto Rico.15

14

See Santiago-Rivera v. United States, No. Cr. 14-742, 2019
WL 3365846, at *2 (D.P.R. July 25, 2019); United States v. GreauxGomez, 254 F. Supp. 3d 329, 332 (D.P.R. 2017); United States v.
Montalvo-Febus, 254 F. Supp. 3d 319, 329 (D.P.R. 2017); United
States v. Montijo-Maisonet, 254 F. Supp. 3d 313, 315 (D.P.R. 2017);
United States v. Mercado-Flores, 109 F. Supp. 3d 467, 475 (D.P.R.
2015), adhered to, 124 F. Supp. 3d 55 (D.P.R. 2015), and vacated
on other grounds, 872 F.3d 25 (1st Cir. 2017); Cotto-Flores, 2016
WL 5818476, at *2–3; Medina-Ayala, 906 F. Supp. 2d at 22.
15

Cotto also urges that insofar as the statute covers
transportation within Puerto Rico, it is unconstitutional because
it exceeds Congress's power under the commerce clause.
But
"Congress does not plainly lack plenary power under the Territorial
Clause to criminalize certain intra-jurisdictional activity in
[Puerto Rico] simply because it may not do so under the Commerce
Clause within the fifty states." United States v. Ríos-Rivera,
913 F.3d 38, 44 (1st Cir. 2019) (holding the district court did
not plainly err in upholding § 2423(a) as a valid exercise of
Congress's authority under the Territory Clause); Harris, 446 U.S.
at 651–52 (holding that Congress may rely on the Territory Clause
to "treat Puerto Rico differently from the States so long as there
is a rational basis for its actions").
Cotto does not address

- 28 -

Case: 18-2013

Document: 00117626826

Page: 29

Date Filed: 08/10/2020

Entry ID: 6359047

APP 29
Sufficiency of the Evidence
Cotto next argues that the government failed to prove
that Cotto "transported" YMP anywhere (nevermind outside Puerto
Rico).

And even on our reading, the government had to prove that

Cotto "transport[ed]" YMP "in [the] commonwealth" as an element of
the offense.

18 U.S.C. § 2423(a).

So as she sees it, even if we

view all the evidence in a light most favorable to the verdict (as
we must), the government's evidence lacked enough "bite" for a
reasonable jury to find "that the government proved each of the
elements of the charged crime beyond a reasonable doubt."

Tanco-

Baez, 942 F.3d at 15 (quoting United States v. Lara, 181 F.3d 183,
200 (1st Cir. 1999)).

If Cotto is right, then she'd be entitled

to a judgment of acquittal, not just a new trial.

See Burks v.

United States, 437 U.S. 1, 18, (1978) (holding that "the Double
Jeopardy Clause precludes a second trial once the reviewing court
has found the evidence legally insufficient").
Her problem is that YMP testified in clear terms that
Cotto picked him up at La Casa de Abuela and drove him to the Motel

these precedents or argue that § 2423(a) oversteps Congress's power
to "make all needful Rules and Regulations respecting the Territory
. . . belonging to the United States," U.S. Const., Art. IV, § 3,
cl. 2. Nor does she develop any argument that the statute, as
we've interpreted it, lacks a "rational basis" (which would violate
the Equal Protection Clause) or violates a U.S.-Puerto Rico
compact. As such, we cannot conclude in this case that Congress
lacked the authority to regulate illicit transportation within
Puerto Rico. See Ríos-Rivera, 913 F.3d at 43–44.

- 29 -

Case: 18-2013

Document: 00117626826

Page: 30

Date Filed: 08/10/2020

Entry ID: 6359047

APP 30
Oriente to have sex.

Cotto urges that YMP's testimony can't

sustain her conviction because she "impeached" him "extensively";
another student (called by the defense) testified that he saw YMP
get into a white car (Cotto's car was gray) that day, and on cross,
YMP admitted he lied to his mom and school staff about where he'd
disappeared to.

But Cotto skates over the evidence that she

herself urged YMP to lie in order to hide their relationship from
his mother and school officials (and for obvious reasons).
above at 6.

See

Of course, the jury didn't have to find YMP lied at

trial simply because he'd fibbed to protect her two years earlier.
Anyway, when testing the sufficiency of the evidence, we do not
"assess the credibility of trial witnesses" or "resolve conflicts
in the evidence," United States v. Gaudet, 933 F.3d 11, 15 (1st
Cir. 2019) (quoting United States v. Hernández, 218 F.3d 58, 66
n.5 (1st Cir. 2000)); "that is a role reserved for the jury."
United States v. Kanodia, 943 F.3d 499, 505 (1st Cir. 2019)
(quoting United States v. Robles-Alvarez, 874 F.3d 46, 50 (1st
Cir. 2017)).

And based on the evidence the government presented,

the jury was well within its rights to credit YMP's story of being
carted off by Cotto, which school staff (testifying that Cotto
left school early that day too), the WhatsApp messages, and the
motel records corroborated.

- 30 -

Case: 18-2013

Document: 00117626826

Page: 31

Date Filed: 08/10/2020

Entry ID: 6359047

APP 31
Jury Instructions
Third, Cotto faults the judge for instructing the jury
about the crime of sexual assault under Puerto Rico law.

Although

we need not reach this issue, since we ultimately remand for a new
trial,

we

address

it

to

provide

guidance

on

remand.

See

Swajian v. Gen. Motors Corp., 916 F.2d 31, 35 (1st Cir. 1990).
To

recap,

to

show

Cotto

violated

§

2423(a),

the

government had to prove she transported YMP in Puerto Rico "with
intent

that

[he]

engage

in . . . sexual

activity

for

which

[someone] can be charged with a criminal offense" (stress added).
And the judge told the jury precisely that, both before the trial
(in a set of preliminary instructions) and after the close of
evidence.

He then explained:
Under the laws of Puerto Rico, criminal sexual
activity includes the following conduct: One, when
a person performs or provokes another person to
perform an oral-genital act or vaginal or anal
sexual penetration, whether genital, digital, or
instrumental, if the minor has not yet reached the
age of 16 at the time of the event; or, number two,
when
a
person
purposefully,
knowingly
or
recklessly, without consummating the conduct
defined in the point above, submits another person
to an act that tends to awake, excite, or satisfy
the passion or sexual desires of the suspect, if
the minor has not yet reached the age of 16 at the
time of the event.

Though the judge didn't name them, he was describing the offenses
of "sexual assault" and "lewd acts" under Puerto Rico law, P.R.
Laws Ann. tit. 33, §§ 4770, 4772.

He followed up by reminding the

- 31 -

Case: 18-2013

Document: 00117626826

Page: 32

Date Filed: 08/10/2020

Entry ID: 6359047

APP 32
jury that the government need not prove Cotto committed those
crimes; only that she "intended" to do so.
Cotto argues that these instructions about Puerto Rico
crimes "unnecessarily confused [the jurors] by implicitly telling
them to convict based on sexual assault instead of transportation
of a minor," which she calls "a fatal flaw" in the trial that
unfairly "tipped the scale in favor of conviction."
We test such "preserved claims of instructional error
under a two-tiered standard:

we consider de novo whether an

instruction embodied an error of law, but we review for abuse of
discretion whether the instructions adequately explained the law
or whether they tended to confuse or mislead the jury on the
controlling issues."
(1st

Cir.

2012)

United States v. Symonevich, 688 F.3d 12, 24

(internal

quotation

marks

omitted).

The

instructions here correctly stated the law, and Cotto gives us no
reason to think they may have thrown off the jury.

To know if

Cotto intended to commit "sexual activity for which any person can
be charged with a criminal offense," 18 U.S.C. § 2423(a), the jury
had to know what kind of "sexual activity" constitutes a criminal
offense in Puerto Rico.

See United States v. Dávila-Nieves, 670

F.3d 1, 8 (1st Cir. 2012) (upholding the judge's decision to
instruct the jury on the offense of sexual assault under Puerto
Rico

law

in

a

prosecution

under

18

U.S.C.

§ 2422(a),

which

prohibits enticing a minor to engage in "sexual activity for which

- 32 -

Case: 18-2013

Document: 00117626826

Page: 33

Date Filed: 08/10/2020

Entry ID: 6359047

APP 33
any person can be charged with a criminal offense," because "where
a federal prosecution hinges on an interpretation or application
of state law, it is the district court's function to explain the
relevant state law to the jury"

(quoting United States v. Fazal-

Ur-Raheman-Fazal, 355 F.3d 40, 49 (1st Cir. 2004)); United States
v. Rodríguez-Rodríguez, 663 F.3d 53, 58 (1st Cir. 2011) (reasoning
that "[i]n order for the jury to determine" whether the defendant
violated § 2422(b), "it had to be instructed on Puerto Rico law").
So, as the government notes, every circuit (including ours) with
a pattern jury instruction for offenses using the phrase "sexual
activity for which any person can be charged with a criminal
offense" tells the district court to insert the allegedly intended
criminal offense into the instruction and, in most cases, to
describe its elements.16

In this case, as in the cases just cited,

following that convention was not an abuse of discretion.
Testimony by Two-Way Television
However, Cotto's last challenge spells the end of the
government's winning streak.

Specifically, she argues that the

judge violated her Sixth Amendment right to confront YMP in person

16

See First Circuit Pattern Criminal Jury Instructions
§ 4.18.2422(b) (instruction for enticement of a minor under 18
U.S.C. § 2422(b)); Fifth Circuit Criminal Jury Instructions § 2.91
(for enticement of a minor under § 2422(b)); Sixth Circuit Pattern
Criminal Jury Instructions § 16.10 (for § 2423(a)); Seventh Circuit
Pattern Criminal Jury Instructions for § 2423(a); Eighth Circuit
Pattern Jury Instructions § 6.18.2423A (for § 2423(a)).
- 33 -

Case: 18-2013

Document: 00117626826

Page: 34

Date Filed: 08/10/2020

Entry ID: 6359047

APP 34
when he permitted YMP to testify remotely through two-way CCTV.
See above n.4 (describing the procedure).

We'll start with the

legal framework governing this claim before we explain how the
judge misapplied it here and why the slip warrants a new trial.
Law on Tele-Testimony
In

the

ordinary

case,

the

Sixth

Amendment

to

the

Constitution gives the defendant the right "physically to face"
the witnesses who testify against her. Coy v. Iowa, 487 U.S. 1012,
1017, 1021 (1988) (holding that placing a screen in front of two
child witnesses to block their view of the defendant while they
testified against him violated the Sixth Amendment).

The idea is

that insisting that witnesses testify "in the presence of the
person [they] accuse" helps ferret out the truth and lowers the
risk of wrongful conviction.

Id. at 1020.

As the old wisdom goes,

it is "more difficult to tell a lie about a person 'to his face'
than 'behind his back.'"

Id. at 1019 ("A witness 'may feel quite

differently when he has to repeat his story looking at the man,"
or woman, "whom he will harm greatly by distorting or mistaking
the facts.'" (quoting Zechariah A. Chafee, Jr., The Blessings of
Liberty 35 (1956)).

And, "even if the lie is told, it will often

be told less convincingly" under the gaze of the defendant and
jurors who can see the fibber's demeanor with their own eyes.
(explaining

that

the

Constitution

prescribes

Id.

face-to-face

confrontation as the best way to "confound and undo the false

- 34 -

Case: 18-2013

Document: 00117626826

Page: 35

Date Filed: 08/10/2020

Entry ID: 6359047

APP 35
accuser" and "reveal the child coached by a malevolent adult,"
even if it might "upset" honest victims who take the stand to
implicate the guilty).
But,

like

the

presumptions

that

underpin

it,

the

constitutional right to unscreened in-person confrontation has its
limits.

See Craig, 497 U.S. at 844, 849 (holding that defendants

do not have an "absolute right to a face-to-face meeting with
witnesses

against

them

at

trial").

The

state

also

has

a

"compelling" interest in protecting "minor victims of sex crimes
from further trauma and embarrassment."

Id. at 852 (quoting Globe

Newspaper Co. v. Superior Court of Norfolk Cty., 457 U.S. 596, 607
(1982)).

So, in sexual abuse cases, when "necessary" to elicit a

minor victim's testimony without subjecting him or her to further
trauma, "at least where such trauma would impair the child's
ability to communicate," the court may allow the minor to testify
from another room through CCTV — that is, as long as the minor
still testifies under oath, subject to live cross-examination,
"and the judge, jury, and defendant are able to view (albeit by
video monitor) the demeanor (and body) of the witness as he or she
testifies."

Id. at 851, 857.

"The

requisite

finding

"must . . . be a case-specific one:

of

necessity,"

however,

The trial court must hear

evidence and determine whether use of the [CCTV] procedure is
necessary to protect the welfare of the particular child witness

- 35 -

Case: 18-2013

Document: 00117626826

Page: 36

Date Filed: 08/10/2020

Entry ID: 6359047

APP 36
who seeks to testify."

Id. at 855.

That entails two key findings:

first, that the minor would be "traumatized, not by the courtroom
generally, but by the presence of the defendant" (since otherwise,
(s)he could testify "in less intimidating surroundings" with the
defendant

present);

and

second,

"that

the

emotional

distress

suffered by the child witness in the presence of the defendant is
more than . . . mere nervousness or excitement or some reluctance
to testify."

Id. at 856 (internal quotation marks omitted).

The

Maryland statutory procedure challenged in Craig (as the state
court applied it) allowed testimony by CCTV if testimony "in the
presence of the defendant" would cause the child to "suffer[ ]
serious emotional distress such that the child could not reasonably
communicate."

Id. at 858.

The Supreme Court held that standard

passed constitutional muster.

Id.

After all, "where face-to-face

confrontation causes significant emotional distress in a child
witness, there is evidence that [it] would in fact disserve the
Confrontation Clause's truth-seeking goal."

Id. at 857 (citing,

among other things, the Brief for American Psychological Ass'n as
Amicus Curiae, Maryland v. Craig, 1990 WL 10013093, at 18–24 (1990)
("APA Brief") (discussing empirical evidence that a defendant's
physical presence can influence child sex abuse victims to give
less accurate, detailed, and complete testimony)).
In Craig's wake, Congress enacted 18 U.S.C. § 3509(b),
which sets out alternatives to in-person testimony in child sexual

- 36 -

Case: 18-2013

Document: 00117626826

Page: 37

Date Filed: 08/10/2020

Entry ID: 6359047

APP 37
abuse cases.

See Child Victims' and Child Witnesses' Rights Act

of 1990, Pub. L. 101–647, § 225, 104 Stat. 4789, 4798 (Nov. 29,
1990).

Among other things, the statute allows minor victims in

such cases to testify from a room outside the courtroom by twoway CCTV if the court finds on the record "that the child is unable
to

testify

in

open

court

in

defendant . . . because of fear."

the

presence

of

the

18 U.S.C. § 3509(b)(1)(B)(i).

Since Cotto raises both statutory and constitutional challenges
(and neither party distinguishes the two), we'll assume that the
statute requires at least what the Sixth Amendment does.

In other

words, to satisfy § 3509(b)(1)(B)(i), the judge has to make "a
specific finding" that if the minor testified "in the presence of
the defendant" — even "in a less intimidating environment" —
(s)he'd feel fear so severe "that [(s)he] could not reasonably
communicate."

Craig, 497 U.S. at 856, 858.

Thus, "a generalized

finding that the child suffers from fear [is not] enough to trigger
closed-circuit testimony; the fear must be related to the prospect
of testifying in the presence of the defendant."

136 Cong. Rec.

H13288-02, H13296 (Oct. 27, 1990) (Statement of Rep. Edwards);
accord United States v. Garcia, 7 F.3d 885, 887–88 (9th Cir. 1993)
(concluding that Congress intended § 3509(b)(1)(B) to "codify[]

- 37 -

Case: 18-2013

Document: 00117626826

Page: 38

Date Filed: 08/10/2020

Entry ID: 6359047

APP 38
the requirement in Craig that the child be unable to testify in
open court due to the presence of the defendant").17
Whether
"sufficient

to

the

permit

trial
the

judge

use

of

made

specific

closed-circuit

findings
television

testimony . . . is a legal issue that we review de novo":
is, without deference.

that

United States v. Turning Bear, 357 F.3d

730, 735–36 (8th Cir. 2004).

When the judge makes the required

findings, however, we review them for "clear error," United States
v. Cox, 871 F.3d 479, 484 (6th Cir. 2017) (citing Hernandez v. New
York, 500 U.S. 352, 364 (1991)), meaning we must defer to the
judge's findings unless "after whole-record review — we have 'a
strong, unyielding belief'" that the judge got the facts wrong.
United States v. Rivera-Carrasquillo, 933 F.3d 33, 42 (1st Cir.
2019) (quoting Toye v. O'Donnell (In re O'Donnell), 728 F.3d 41,

17

Since neither party makes an issue of them, we've made two
more assumptions here. First, we assume without deciding that the
test announced in Craig (which involved one-way CCTV through which
the witness couldn't see the defendant) also applies to the twoway CCTV procedure, as most circuits have held. Compare United
States v. Carter, 907 F.3d 1199, 1207–08 & n.4 (9th Cir. 2018)
with United States v. Gigante, 166 F.3d 75, 80–81 (2d Cir. 1999).
Second, we assume (also without deciding) that the Supreme Court's
later decision in Crawford v. Washington, 541 U.S. 36 (2004), which
overruled a key case Craig relied on, did not modify Craig itself.
See
Carter,
907
F.3d
at
1206
n.3
(holding
that
"while Craig and Crawford stand in 'marked contrast' in several
respects, 'Crawford did not overturn Craig'" (quoting United
States v. Cox, 871 F.3d 479, 492–95 (6th Cir. 2017) (Sutton, J.,
concurring)).

- 38 -

Case: 18-2013

Document: 00117626826

Page: 39

Date Filed: 08/10/2020

Entry ID: 6359047

APP 39
45 (1st Cir. 2013)).

That doesn't mean we let the findings stand

whenever there's some evidence to support them.

As the Court has

put it, "[a] finding is 'clearly erroneous' when although there is
evidence to support it, the reviewing court on the entire evidence
is left with the definite and firm conviction" the judge made a
mistake.

Anderson v. City of Bessemer City, N.C., 470 U.S. 564,

573 (1985) (quoting United States v. United States Gypsum Co., 333
U.S. 364, 395 (1948)) (emphases ours).

But as long as the judge's

finding is "plausible," we may not reverse it even if we're sure
that "had [we] been sitting as the trier[s] of fact, [we] would
have weighed the evidence differently."

Id. at 573–74.

So meeting the "clear error" standard is "no easy task";
it's "not enough that a finding strikes us as possibly or even
probably wrong."

Díaz-Alarcón v. Flández-Marcel, 944 F.3d 303,

312 (1st Cir. 2019).
[five]

week

old,

It has to be "wrong with the force of a

unrefrigerated,

O'Donnell, 728 F.3d at 46).

dead

fish."

Id.

(quoting

The bar is high for a reason.

When

we review a transcript on appeal, we weren't there to see the
testimony unfold live; unlike the trial judge, we didn't "see [the]
witnesses face-to-face" or "appraise in person their demeanor and
inflection."

United States v. Pérez-Díaz, 848 F.3d 33, 38 (1st

Cir. 2017) (quoting United States v. Guzmán-Batista, 783 F.3d 930,
937 (1st Cir. 2015)). We can't see the distress on someone's face,
or hear the stress in their voice, by reading their words in 12-

- 39 -

Case: 18-2013

Document: 00117626826

Page: 40

Date Filed: 08/10/2020

Entry ID: 6359047

APP 40
point

Courier

New.

And

unlike

us,

trial

judges

"listen

witnesses" and gauge their credibility "for a living."

to

Díaz-

Alarcón, 944 F.3d at 311 (quoting Taglieri v. Monasky, 907 F.3d
404, 408 (6th Cir. 2018)).

So unless "objective evidence . . .

contradicts

story,"

a

witness's

or

it's

"so

internally

inconsistent or implausible that no reasonable factfinder would
credit it," Pérez-Díaz, 848 F.3d at 38 (quoting Guzmán-Batista,
783 F.3d at 937), a judge's choice to believe a witness "can
'virtually never be clear error.'"

Cooper v. Harris, 137 S. Ct.

1455, 1478 (2017) (quoting Anderson, 470 U.S. at 575).
With that high standard in mind, we turn to YMP's inchambers testimony and the judge's findings based on it.
YMP's Testimony
About a week before trial, the government filed a motion
to have YMP testify by two-way CCTV under § 3509(b). Cotto opposed
the request, arguing that remote testimony wasn't necessary and
would violate the Sixth Amendment.

The court tabled the matter

until the day before YMP was set to testify.
on

the

fifth

day

of

trial,

the

judge

When the time came

called

a

recess

and

interviewed YMP in his chambers with his mother and both sides'
lawyers.
To begin, there were several rounds of questions:
from

the

government

(e.g.,

testify[ing] in open court?

"Q:

[H]ow

do

you

feel

first

[about]

A: Very bad."), then the defense,

- 40 -

Case: 18-2013

Document: 00117626826

Page: 41

Date Filed: 08/10/2020

Entry ID: 6359047

APP 41
which sought to paint YMP as a high-functioning scholar-athlete
unaffected by Cotto's alleged crime:

he had decent grades in

school (YMP agreed) and played on a traveling baseball team.

But

on redirect, the government got back to the issue at hand.

The

AUSA (that is, the attorney for the government) asked:
[AUSA]: How would you feel about seeing [Cotto] in
court today?
A: Bad, uncomfortable.
[AUSA:] How bad and how uncomfortable?
A: Too much.
The Court:

Would you be able to testify?

YMP: No.
At that point, Cotto's lawyer jumped back in; he pointed out that
"everybody is uncomfortable as a witness," and YMP had spoken in
public before — he'd given interviews on sports radio.
admitted he had.

YMP

But on the radio (YMP added), he'd been talking

about baseball; he hadn't had to discuss this case.
government followed up:

So the

"How would you feel if you were in that

same radio station speaking about what is happening today in
court?"

"Very, very, very bad," said YMP.

Then, the defense

attorney stepped in once more:
[Defense Counsel]:
And you feel bad because you
don't want to talk about personal things; is that
correct?
A:

Yes.

- 41 -

Case: 18-2013

Document: 00117626826

Page: 42

Date Filed: 08/10/2020

Entry ID: 6359047

APP 42
[Defense Counsel]: But if you are compelled to do
it and you have to testify, you will do it?
A:

If I am compelled I wouldn't do it either.

[Defense Counsel]: If you are called as a witness
for the prosecution, would you be conversant in
answering her questions truthfully in open court?
A:

No.

The Court:
YMP:

Why?

Because it's uncomfortable.

The Court:

Well —

Cotto's lawyer cut in again: had the prosecution ever explained
"[t]hat it is a normal process for you to testify as a witness at
trial?"
asked.

YMP was confused.

"What do you mean, 'at trial'?" he

That's when the judge painted the picture.

At "a trial,"

he explained:
The Court: . . . there is a jury, and your mother
and your father will be present, your lawyer will be
present, the judge will be present, and the defendant
. . . Yaira Cotto, she is entitled to be there. She
is not going to be asking questions, but she is
entitled to be there.
YMP:

That wouldn't be the best.

The Court:
Well, would you be able to testify?
That's the issue.
YMP:

No.

The Court:
YMP:

So you would not testify?

No.

[Defense Counsel]:
can't you do that?

May I ask something?

- 42 -

Why?

Why

Case: 18-2013

Document: 00117626826

Page: 43

Date Filed: 08/10/2020

Entry ID: 6359047

APP 43
A:

Because, no, I don't feel comfortable.

The Court:

And why would you feel not comfortable?

YMP: Because I don't want to see her.
to be there.

I don't want

The Court: Would that cause you to lose your tongue?
Is that what you're telling me?
YMP:

Yes.

The Court:

Why?

YMP: Because I don't want to testify with her there.
I don't want to be uncomfortable.
At that point, the judge dismissed YMP and his mother to confer
with the lawyers.
"So counsel," the judge leveled (quoting from Craig),
"mere nervousness or excitement or some reluctance to testify is
not enough, but it has to be serious emotional distress such that
the child cannot reasonably communicate." On that score, the judge
was skeptical:

YMP "seem[ed] to be in the middle[.]"

So the

lawyers skirmished over whether YMP expressed "fear" of testifying
or just discomfort or "some reluctance" to do so.

The judge noted

that YMP had "a change of face when he stated, kind of annoyed,
that he did not want to testify against her."

The defense clapped

back that "that per se doesn't mean fear" — and even if YMP felt
fear, it would have to come from Cotto, and he hadn't said that he
feared her.

The judge responded that "[t]he fear can be fear to

testify before a jury, fear to testify before other people, and

- 43 -

Case: 18-2013

Document: 00117626826

Page: 44

Date Filed: 08/10/2020

Entry ID: 6359047

APP 44
fear to testify before the judge.
It's fear."

There's many fears involved.

Moving on, the judge had his clerk pull out a

dictionary to find synonyms for "fear" and asked the interpreter
how he'd translate them.

Then, he called YMP back in to get more

specifics.
Using those synonyms for "fear," the judge asked YMP if
"testifying in this case [would] subject you to distress?" (YMP
said "yes"), "cause you to become agitated?" ("yes"), "cause
you . . . great distress?" ("yes"), and "cause you some sort of
apprehension or alarm?" ("yes").
The Court:
And do you think — above all, do you
think that this is fear that you would be — be
causing yourself?"
YMP:

Yes.

The Court: So all of those that I just stated, which
is the one that really causes you to not be able to
testify?
YMP: Seeing her, standing there; that I have never
been there.
The Court:
YMP:

Have been where?

In the court.

On re-cross, Cotto's lawyer took aim at YMP's testimony that
"seeing [Cotto] standing there" caused him fear.

He pointed out

that in a statement YMP wrote for investigators two years earlier,
YMP "didn't write that he was afraid of Mrs. Cotto."
admitted.

- 44 -

"No," YMP

Case: 18-2013

Document: 00117626826

Page: 45

Date Filed: 08/10/2020

Entry ID: 6359047

APP 45
[Defense Counsel]: Because you didn't feel afraid of
her; is that correct?
A:

No.

[Defense Counsel]: And today you don't feel any fear for
her either?
A: I am not afraid, but I do feel uncomfortable when I
see her.
. . .
[AUSA]: How would you feel if you have to testify in
front of Mrs. Cotto today in court?
A: Super bad, as I said before.
[AUSA]: And when you say "super bad," could you describe
to the judge, what does that mean?
A:

That I am going to feel nervous, anxious.

[AUSA]:
A:

Do you want to see Ms. Cotto?

No.

. . .
The Court: Does that bring fear to you by the fact that
she is there?
[YMP]:

Yes.

Unsatisfied, Cotto's lawyer followed up a final time:
[Defense Counsel]: What type of fear?
us what type of fear can come to you.

Explain to

A: I don't want to see her because I don't feel good
when I see her. I don't want to see her and — I
don't want to see her.
[Defense Counsel]: Is that it?
[AUSA]:

That's all the —

Do you fear her looking at you?

- 45 -

Case: 18-2013

Document: 00117626826

Page: 46

Date Filed: 08/10/2020

Entry ID: 6359047

APP 46
A:

Not necessarily.

[AUSA]:

What exactly do you fear?

[Defense Counsel]: Let the record reflect that he
has remained silent.
The Court: No, let the record also reflect that he's
become red in the face.
[Defense Counsel]:
The Court:

Of course, he is blushing.

[Defense Counsel]:
[AUSA]:

He is blushing.

Yes.

Okay.

Fine.

But does that mean fear?

Yes.

[Defense Counsel]: He hasn't answered, Your Honor.
The record should reflect that it's been almost 20
seconds and he hasn't answered.
The Court:

He's been getting red.

[AUSA]: Let the record reflect, Your Honor, that we
are talking with a 16-year-old minor.
The Court: He is still a minor.
have any further questions?

All right. Do we

They didn't.
Back
motion.

in

court,

the

judge

granted

the

government's

To start off, the judge "f[ound] that [YMP] demonstrated

reluctance to testify and [had a] frightened demeanor, as he
physically flushed (his face became red), his body choked, he
started moving his legs, and expressed that his chest was tight on
his left side by moving his right hand to his chest."
describing

YMP's

testimony

and

noting

- 46 -

that

"the

After

face-to-face

Case: 18-2013

Document: 00117626826

Page: 47

Date Filed: 08/10/2020

Entry ID: 6359047

APP 47
confrontation

requirement

is

not

absolute"

but

"not

easily

dispensed with" (quoting Craig), the judge then concluded:
As such, the Court determines that there is a necessity
to protect the welfare of this particular child witness
who has demonstrated physical effects of fear as the Court
asked specific questions using different synonyms of the
word "fear," as the victim stated to the Court on every
synonym used that he would either not testify or was
reluctant to testify in the presence of the defendant in
accordance with the requirements of [§] 3509.
(emphasis ours).

When the trial resumed, YMP testified by two-

way CCTV.
Our Take
Cotto argues that the judge failed to make the specific
findings § 3509(b) and Craig together require, and even if he made
the needed findings, the evidence didn't support them. Like Cotto,
we doubt that YMP's testimony was sufficient to justify the use of
CCTV.

But we need not decide that issue — because in our view,

the judge's use of the wrong legal standard and inadequate factual
findings,

set

against

the

inconsistencies

and

gaps

in

the

evidentiary record, warrant a new trial in this case.
As we said up front, § 3509(b) and Craig together demand
more than a general conclusion that CCTV is "necess[ary] to protect
the welfare" of the witness; they demand (as relevant here) a
"specific

finding"

that

the

minor

could

not

"reasonably

communicate" in the defendant's presence because of fear.

Craig,

497 U.S. at 856; 18 U.S.C. § 3509(b); see, e.g., Garcia, 7 F.3d at

- 47 -

Case: 18-2013

Document: 00117626826

Page: 48

Date Filed: 08/10/2020

Entry ID: 6359047

APP 48
888 (affirming use of CCTV based on judge's finding that "because
of [her] fear of the defendant," the victim's "testimony would not
be open, complete, and substantially helpful to the jury" if she
testified with him present). Here, the judge made no such finding.
Instead,

his

explicit

findings

concluded

only

"that

[YMP]

demonstrated reluctance . . . to testify" and "demonstrated the
physical effects of fear" when the judge asked "specific questions"
using various synonyms for it (which YMP answered affirmatively).
But those "specific questions" were about "testifying in this case"
generally;

they

specifically.

did

not

ask

YMP

how

he

felt

about

Cotto,

So the judge did not find that Cotto frightened YMP

or that her presence (as opposed to the daunting courtroom setting)
would make him "unable" to testify.

18 U.S.C. § 3509(b); see

Craig, 497 U.S. at 857–58 (explaining that "[t]he question of
whether a child is unavailable to testify . . . should not be asked
in terms of inability to testify in the ordinary courtroom setting,
but in the much narrower terms of the witness's inability to
testify in the presence of the accused").

As such, the judge did

not resolve the issues Craig made critical.

See United States v.

Bordeaux, 400 F.3d 548, 552 (8th Cir. 2005) (holding the trial
court's finding "that [the child's] fear of the defendant was only
one reason why she could not testify in open court" was inadequate
because it "did not find that [her] fear of the defendant was the
dominant reason" she couldn't testify) (citing Turning Bear, 357

- 48 -

Case: 18-2013

Document: 00117626826

Page: 49

Date Filed: 08/10/2020

Entry ID: 6359047

APP 49
F.3d at 737 (holding the trial court's finding that a "combination"
of factors frightened the victim came up short because it "failed
to separate out the effect on [the victim] of [the defendant's]
presence")).
The judge's remarks earlier in the hearing clue us in to
why he failed to make the needed findings.

During the brief

intermission in questioning, the defense pointed out that the
government had to show "where [YMP's] fear comes from" (i.e., Cotto
herself) and argued that YMP did not fear Cotto ("I have a
statement from him here saying he is in love with the teacher, not
that he feared her," he proffered).

But the judge dismissed that

argument, saying (incorrectly) that "the fear can be fear to
testify before a jury, fear to testify before other people, and
fear to testify before the judge," as long as it was "fear."

In

other words, he overlooked Craig's demand for a showing that YMP
feared "the presence of the defendant" and not just the "courtroom
generally."

Craig, 497 U.S. at 856.

Without that showing, CCTV

may not have been "necessary," since YMP could reasonably have
testified in "less intimidating surroundings" with Cotto there.
Id.18

The judge's misreading of Craig, and resulting failure to

18

For example, if the judge believed that the combination of
the courtroom and the defendant's presence would interfere with
YMP's testimony, he could have considered closing the courtroom to
the public or permitting non-essential observers to watch from an
overflow room.
See 18 U.S.C. § 3509(e) (allowing the court to

- 49 -

Case: 18-2013

Document: 00117626826

Page: 50

Date Filed: 08/10/2020

Entry ID: 6359047

APP 50
make the needed findings, undermines his conclusion that CCTV was
necessary.

See

Pullman-Standard v. Swint,

456

U.S.

273,

287

(1982) ("[I]f a district court's findings rest on an erroneous
view of the law, they may be set aside on that basis.").
Wait

a

second,

says

the

government.

In

his

oral

decision, the judge "noted YMP testified that he felt 'greatly
distressed and uncomfortable about testifying in court before the
Defendant.'"

Appellee's Br. at 38.

And he also said that YMP

"stated that he would be unable to testify if he were in front of
the defendant," not just in the courtroom generally.

But as the

government implicitly concedes, while the judge may have "noted"
that YMP made those statements, he didn't find that either of them
were true. So, given the judge's earlier misstatement of the legal
standard, we can't conclude he was adopting YMP's statements
wholesale as his own findings of fact — at least not in this case,
where

YMP's

testimony

about

his

feelings

toward

Cotto,

specifically, was equivocal at best.

close the courtroom to "all persons, including members of the
press, who do not have a direct interest in the case" if opencourt testimony "would cause substantial psychological harm to the
child or would result in the child's inability to effectively
communicate" and the order is "narrowly tailored to serve the
government's compelling interest"); Craig, 497 U.S. at 852
(explaining that the court may exclude the "press and public" from
the courtroom where the trial court makes "a case-specific finding
that closure of the trial is necessary to protect the welfare of
the minor" (citing Globe Newspaper Co., 457 U.S. at 608–09)).
- 50 -

Case: 18-2013

Document: 00117626826

Page: 51

Date Filed: 08/10/2020

Entry ID: 6359047

APP 51
Indeed, a firm finding on the key issue — whether YMP
felt frightened and unable to testify because of Cotto, and not
just the crowded courtroom — was especially needed on this shaky
record.

On that critical point, YMP never gave a clear answer.

Twice, it's true, the judge asked YMP if he "[w]ould . . . be able
to testify," and YMP said no.

But both times, the judge was

following up on questions about how YMP would feel about testifying
in court, where (the judge made clear) "there is a jury, and
[YMP's] mother and [his] father would be present" as well as Cotto.
And when asked why he believed he wouldn't be able to testify, YMP
gave two reasons:

that he didn't "want to see Cotto" and that he

didn't "want to be there" in court. A similar thing happened later
— after YMP agreed that "testifying in this case" would cause him
"fear" (and its synonyms).

When the judge asked what "cause[d]

YMP" to be afraid and not "able to testify," YMP gave the same two
answers:

one, "seeing [Cotto] standing there" and two, "that I

have never been there . . . in court."

In other words, YMP never

singled out Cotto as the "dominant reason" he couldn't testify in
court.

Bordeaux, 400 F.3d at 552.

So he never addressed whether

he could testify in a less stressful setting with Cotto in the
room.

Craig, 497 U.S. at 856.

And no one ever asked.

Fighting on, the government points out that when the
judge asked YMP (albeit awkwardly) if "that brings fear to you by
the fact that [Cotto] is there?" YMP said yes.

- 51 -

But it reads that

Case: 18-2013

Document: 00117626826

Page: 52

Date Filed: 08/10/2020

Entry ID: 6359047

APP 52
statement in isolation — a luxury we don't have, see Anderson, 470
U.S. at 573 (tasking us to review "the entire evidence").

When

pressed to explain, YMP clarified (as he had before) that he just
didn't "want" to see Cotto because she made him "uncomfortable."
Of course, not wanting to see Cotto — or feeling "nervous,"
"anxious," and "uncomfortable" around her (like virtually all
witnesses do) — didn't mean she'd make him unable to "reasonably
communicate" his story to the jury.
And here's the real killer:

See Craig, 497 U.S. at 856.

when the defense asked him point-

blank, YMP testified that he was "not afraid" of Cotto.

With that

plain statement etched in the record, we doubt it could have borne
a finding that Cotto frightened YMP so much that she'd chill his
testimony.

See United States v. Moses, 137 F.3d 894, 898–99 (6th

Cir. 1998) (reversing the judge's because-of-fear finding where
the child testified she was "not afraid of" the defendant but
didn't "want" to see him).
Let's be clear:

we do not expect that child victims

will always (or even usually) be able to explain "what exactly"
they fear about testifying in the courtroom or give the clarity
Craig requires; and nor could we, when the whole point is to figure
out

whether

the

witness

defendant's presence.

can

"reasonably

communicate"

Craig, 497 U.S. at 856.

in

the

But that's where

expert testimony (while not required, United States v. Rouse, 111
F.3d 561, 569 (8th Cir. 1997)) can help fill in the gaps.

- 52 -

See

Case: 18-2013

Document: 00117626826

Page: 53

Date Filed: 08/10/2020

Entry ID: 6359047

APP 53
Craig,

497

U.S.

at

842

(noting

that

"expert

testimony"

had

"suggested that each child [victim] would have some or considerable
difficulty in testifying in Craig's presence"); Cox, 871 F.3d at
485 (affirming the use of CCTV where an expert witness examined
the child and gave "particularized" and specific testimony that
the defendant's presence would cause the child trauma and interfere
with their testimony); APA Br. at 24 (recommending that "multiple
sources of information, including expert testimony, should be
sought in making an individualized determination whether there is
a need to limit the defendant's right to face-to-face confrontation
when a particular child victim testifies").

In United States v.

Graham, for example, "the district court, on voir dire, found that"
the 17-year-old victim was "extremely nervous and uncomfortable
and fearful . . . and credited her statement that she was 'afraid'
of facing [her trafficker] in court."
Cir.

2017).

Still,

the

Second

707 F. App'x 23, 28 (2d

Circuit

wrote

that

"[t]hese

apprehensions of appearing for live testimony may fail to meet our
demanding constitutional standard absent specific indicia of the
emotional

trauma

the

child

witness

would

experience

'not

by

[testimony in] the courtroom generally, but by the presence of the
defendant.'"

Id. (quoting Craig, 497 U.S. at 856).

What tipped

the scales was a psychiatrist's finding (which the district court
credited)

that

the

witness

would

"be

unable

to

reasonably

communicate if forced to testify in the live presence of the

- 53 -

Case: 18-2013

Document: 00117626826

Page: 54

Date Filed: 08/10/2020

Entry ID: 6359047

APP 54
defendant."

Id.

Here in contrast, the government did not enlist

an expert to examine YMP and help fill the holes or reconcile the
contradictions in his in-chambers testimony.19

And all told,

that's left us with too little to go on.
As a result, even if the district judge intended to find
that YMP was "unable to testify in front of [Cotto]," we could
"[ ]not on this record . . . sustain [that] finding" without more
explanation for how the judge arrived at it.

United States v.

Oquendo-Rivera, 586 F.3d 63, 68 (1st Cir. 2009).

Ordinarily, we

might not require a trial judge to explain why he found certain
facts, at least when "the basis is plain from the record."

Id.

That's especially true when it comes to "credibility," which (as
we've said) "is largely a matter for the fact-finder."

Id. at 67.

But that doesn't mean we can "insulate . . . findings from review
by denominating them credibility determinations[.]"
U.S. at 575.

Anderson, 470

As the Supreme Court has explained, that's because

19

Just before YMP testified in chambers, the government did
present an expert who testified outside the jury's presence on
"the general effects that boys suffer when they are the subject of
sexual abuse, be it from a male or a female." "Hearing an expert's
general testimony" on "the trauma a child may experience from
testifying in court in a defendant's presence" "is not prohibited
by Craig, so long as the testimony is not the sole basis for
finding that an individual child would suffer emotional trauma
from testifying in the presence of a defendant." Garcia, 7 F.3d
at 889. However, the government wrote in its appellate brief that
the expert's "testimony was unrelated to the issue of whether the
minor should testify via two-way [CCTV]." Thus, it has waived any
argument based on the expert's testimony.

- 54 -

Case: 18-2013

Document: 00117626826

Page: 55

Date Filed: 08/10/2020

Entry ID: 6359047

APP 55
factors other than demeanor and inflection go into the
decision whether or not to believe a witness. Documents
or objective evidence may contradict the witness' story;
or the story itself may be so internally inconsistent or
implausible on its face that a reasonable factfinder
would not credit it. Where such factors are present,
the court of appeals may well find clear error even in
a
finding
purportedly
based
on
a
credibility
determination.
Id.

Thus, when it appears (but is not certain) that "[d]ocuments

or objective evidence . . . contradict[ed] the witness' story," or
when the relied-on testimony seems "implausible" or "internally
inconsistent" on a critical issue, we have required judges to give
more explanation for their conclusions.

See, e.g., Oquendo-

Rivera, 586 F.3d at 67–68 (vacating revocation judgment based on
the judge's failure to explain why he credited a key witness's
story despite apparent contradictions in the evidence); United
States v. Forbes, 181 F.3d 1, 7–8 (1st Cir. 1999) (vacating order
denying a motion to suppress for the same reason); see also United
States v. Lacouture, 835 F.3d 187, 191–92 (1st Cir. 2016) (vacating
sentence because judge failed to explain why he credited child
victim's statements in transcript of a forensic interview despite
"apparent inconsistencies" in the child's story).

"How much

explanation" is needed "depends on the circumstances — for example,
on the closeness of the case, the nature and extent of gaps or
doubts" that plague the record, and the "suppositions" needed "to
fill the gaps or answer the doubts."
68.

Oquendo-Rivera, 586 F.3d at

But the upshot is that "[i]n some cases, a result, possibly

- 55 -

Case: 18-2013

Document: 00117626826

Page: 56

Date Filed: 08/10/2020

Entry ID: 6359047

APP 56
defensible, may not have been adequately explained or supported."
Id.
That's our conclusion in this case.

Given the key gap

in YMP's testimony — that he never testified he'd be unable to
testify in front of Cotto even in less daunting surroundings — his
equivocation on the other critical point (whether Cotto frightened
him at all), and the lack of any other evidence such as expert
testimony to clear up the muddle, we could not sustain the judge's
because-of-fear finding (even if he had made one explicitly)
without

some

untangled

the

explanation
apparent

for

how

he

filled

contradictions

20

in

in
YMP's

the

gaps

and

testimony.20

For example, if the judge had known to isolate YMP's
feelings toward Cotto from his fear of the courtroom, the judge
might have nonetheless explained that YMP's tone, inflection and
demeanor suggested that Cotto was the main source of his distress.
For example, when YMP testified that he feared "seeing her,
standing there" and testifying in the courtroom, maybe he put the
stress on "seeing her, standing there" (adding "that I've never
been there . . . in court" as an afterthought). See Cooper, 137
S. Ct. at 1474 (noting that a judge's choices of how to construe
and whether to credit live testimony get "singular deference"
precisely "because the various cues that 'bear so heavily on [both]
the listener's understanding of and belief in what is said' are
lost on an appellate court later sifting through a paper record."
(quoting Anderson, 470 U.S. at 575).
Of course, that train of
thought would have hit the same roadblock we identify above — that
when asked directly, YMP explicitly said he was "not afraid" of
Cotto. But perhaps his demeanor colored those words too; perhaps
the judge (with his own life experience the government's expert's
testimony, see above at n.19, in mind) could have disregarded YMP's
"I'm not afraid" as false bravado. But, given the constitutional
right at stake, and the judge's misconception that he didn't need
to suss out the source of YMP's fear, we decline to speculate about
whether (and if so why) he credited some portions of YMP's
testimony but not others. See Oquendo-Rivera, 586 F.3d at 68.
- 56 -

Case: 18-2013

Document: 00117626826

Page: 57

Date Filed: 08/10/2020

Entry ID: 6359047

APP 57
"Without [that] further explanation," "we would have a definite
and firm conviction" that the evidence was insufficient to show
that CCTV was needed.

Forbes, 181 F.3d at 8.

In sum, then, the trial judge applied an overbroad legal
standard, failed to make the required "because-of-Cotto" finding,
and didn't articulate the explanation necessary to support one (if
the record permitted such a finding at all, which we don't decide).
As a result, when the judge allowed YMP to testify by CCTV, he
violated

Cotto's

right

to

confront

compelling need for remote testimony.

YMP

in

person

absent

a

See Craig, 497 U.S. at 855–

56.
Nonetheless, the government tells us, Cotto's conviction
can stand because she hasn't argued the error impacted the verdict
(so she's "waived" any argument it did).

Appellee's Br. at 40.

But it's the government, not Cotto, that must shoulder the burden
to show that a constitutional violation was "harmless beyond a
reasonable doubt."

Delaware v. Van Arsdall, 475 U.S. 673, 684

(1986) (citing Chapman v. California, 386 U.S. 18, 24 (1967)).

In

answering that question, we have to assume that if Cotto had been
allowed to confront YMP in person, "the damaging potential of [her]
cross-examination" would have been "fully realized."

Id.

As the

Supreme Court explained in Coy, when the trial court violates the
defendant's right to face-to-face confrontation, our

- 57 -

Case: 18-2013

Document: 00117626826

Page: 58

Date Filed: 08/10/2020

Entry ID: 6359047

APP 58
assessment
of
harmlessness
cannot
include
consideration of whether the witness testimony would
have been unchanged, or the jury's assessment
unaltered, had there been confrontation; such an
inquiry would obviously involve pure speculation,
and harmlessness must therefore be determined on the
basis of the remaining evidence.
487 U.S. at 1021–22.
witness'

testimony

Rather, we focus on "the importance of the
in

the

prosecution's

case,

whether

the

testimony was cumulative, the presence or absence of evidence
corroborating or contradicting the testimony of the witness on
material points," and "the overall strength of the prosecution's
case."

Van Arsdall, 475 U.S. at 684; see also Carter, 907 F.3d at

1210 (holding that the victim was wrongly permitted to testify by
two-way CCTV and considering only the "remaining evidence" besides
her testimony to hold that the error wasn't harmless).
Having scoured "the whole record" through that lens, we
can't

"confidently

say"

that

"the

constitutional

error"

here

(letting YMP testify remotely without the required findings) was
"harmless beyond a reasonable doubt."
681.

Van Arsdall, 475 U.S. at

First off, as we've explained in detail, it's not at all

clear the judge would have permitted YMP to testify remotely if
he'd applied the right legal standard, grappled with Cotto's
independent impact on YMP's testimony, and made the more precise
findings Craig requires.

And if YMP had testified under the

"truth-inducing effect" of Cotto's "unmediated gaze," Bordeaux,
400 F.3d at 554; Carter, 907 F.3d at 1207, he may well have changed

- 58 -

Case: 18-2013

Document: 00117626826

Page: 59

Date Filed: 08/10/2020

Entry ID: 6359047

APP 59
his story or told the same tale less convincingly.
U.S. at 1020–22.

See Coy, 487

The government points out that Cotto and YMP's

text messages detailed their sexual relationship, and that school
staff and records corroborated that both of them left school early
on the day in question.

Moreover, records from the motel placed

Cotto's car in the motel's garage that afternoon.

But without

YMP's testimony, none of that evidence establishes that Cotto took
him to the motel, or that she did so to have sex with him.
the

end,

the

government

admits

that

"YMP's

So in

testimony"

was

"undoubtedly . . . important" because he "was the only witness to
establish Cotto transported him to the Motel Oriente on March 1,
2016 with the intent they have sex," as charged in the indictment.
Appellee's Br. at 41.

Thus, if "the damaging potential of [YMP's]

cross-examination were fully realized," Van Arsdall, 475 U.S. at
684,

the

jury

could

have

reasonably

doubted

Cotto's

guilt.

Instead, it may well have believed the other student's testimony
that YMP left school in a white car (not Cotto's gray Kia) and
YMP's initial statements to school staff and his friends that he
hadn't seen Cotto that day.

See Moses, 137 F.3d at 902 (holding

the error wasn't harmless when the child "provided the only eyewitness testimony" to the crime).
Which brings us to the remedy.
to

make

required

factual

findings

When a trial judge fails
or

provide

an

adequate

explanation for his decision, we "normally" remand for him to

- 59 -

Case: 18-2013

Document: 00117626826

Page: 60

Date Filed: 08/10/2020

Entry ID: 6359047

APP 60
reconsider the evidence and make the appropriate findings, if
warranted, or to reverse himself if not.

See Pullman-Standard,

456 U.S. at 292; Forbes, 181 F.3d at 8 (remanding for the district
court to "clarify and amplify the reasons for its factual findings
or, perhaps, reconsider its conclusion").

However, we have broad

discretion to craft the scope of our "remand in the interests of
justice," United States v. Merric, 166 F.3d 406, 412 (1st Cir.
1999), and may also order a new hearing or trial when it would
serve those interests, Ruiz-Troche v. Pepsi Cola of P.R. Bottling
Co., 161 F.3d 77, 88 (1st Cir. 1998) (holding that when a trial
court excluded evidence on a mistaken basis, "[t]he choice of
remedies (including whether to require a new trial or merely remand
for further findings) [was] ours," and remanding for a new trial
even though further findings might have justified excluding the
proffered evidence on other grounds) (citing 28 U.S.C. § 2106);
cf.

Oquendo-Rivera,

586

F.3d

at

69

(vacating

defendant's

revocation judgment and remanding for "more evidence and more
explanation"

before

a

different

judge

when

the

court

didn't

adequately explain why it credited the government's key witness);
Andre

v.

Bendix

Corp.,

774

F.2d

786,

801

(7th

Cir.

1985)

(explaining that an appellate court may "remand[] for a new trial"
when the judge fails to make sufficient findings of fact under
civil rule 52(a) (citing 9C Fed. Prac. & Proc. Civ. § 2577
(1971))).

- 60 -

Case: 18-2013

Document: 00117626826

Page: 61

Date Filed: 08/10/2020

Entry ID: 6359047

APP 61
We think that's the appropriate course here.

To begin

with, when a trial judge has decided the facts — even under an
incorrect legal standard — it can be hard "to put aside a belief
sincerely arrived at and look at the evidence through fresh eyes."
Oquendo-Rivera, 586 F.3d at 69 (reassigning the case on remand for
that very reason); see also United States v. Hernández-Rodríguez,
443 F.3d 138, 148 (1st Cir. 2006) (explaining that we may remand
"to a different district judge not only in recognition of the
difficulty that a judge might have putting aside his previously
expressed views, but also to preserve the appearance of justice").
For similar reasons, the interests of justice counsel against
asking the judge to revisit his previous ruling that CCTV was
necessary and find the missing facts.21

In this case, the key

finding needed to sustain Cotto's conviction by tele-testimony
(i.e., that YMP could not have testified in Cotto's presence) has
faint (at best) support in the evidence.

To make it, the judge

would have to rely on subtle variations in YMP's tone, pace, and
demeanor when he gave certain answers.
based on two-year-old testimony.

And he'd need to do so

See Rucker v. Higher Educ. Aids

Bd., 669 F.2d 1179, 1184 (7th Cir. 1982) (remanding for a new

21

As we note below, since YMP is now over eighteen and has
aged out of § 3509(b)'s coverage, the judge would not have to
revisit his CCTV ruling if the court holds a new trial. So we
don't think it's necessary to order this case reassigned to a
different judge — something Cotto has not requested.
- 61 -

Case: 18-2013

Document: 00117626826

Page: 62

Date Filed: 08/10/2020

Entry ID: 6359047

APP 62
trial, instead of for further findings, when the judge applied an
incorrect legal standard because, among other things, "the trial
ended a year [before] and the record" would be too "stale in the
judge's mind").

We trust that if asked to do so, the judge would

rise to the challenge and reconsider his previous ruling with an
open mind.

But if in doing so he sustains his previous finding,

"it might appear that his determination was improperly influenced
by his initial decision" instead of YMP's now-stale and barely
sufficient testimony.

Hernández-Rodríguez, 443 F.3d at 148.

Without a doubt, testifying in front of an abuser in
court can "be more emotionally traumatic to [a] child than the
initial abuse itself," no matter what his age or gender.

H.R.

Rep. No. 101-681(I) (Sept. 5, 1990), reprinted in 1990 U.S.C.C.A.N.
6472, 6572; see Craig, 497 U.S. at 855 (citing the already-"growing
body of academic literature documenting the psychological trauma
suffered by child abuse victims who must testify in court").
That's true for adults as well as children, though Craig and its
offspring don't protect them.

See 18 U.S.C. § 3509(b) (capping

the age of covered witnesses at eighteen).

So we do not lightly

order a retrial, where (if the government chooses to prosecute),
YMP (now over eighteen) would likely need to face Cotto again.
But the right to confrontation is fundamental.
Texas, 380 U.S. 400, 404 (1965).

See Pointer v.

It preserves not just the

"perception," but also the "reality" of fairness in our criminal

- 62 -

Case: 18-2013

Document: 00117626826

Page: 63

Date Filed: 08/10/2020

Entry ID: 6359047

APP 63
justice system.

Coy, 487 U.S. at 1017 ("[T]here is something deep

in human nature that regards face-to-face confrontation between
accused and accuser as 'essential to a fair trial in a criminal
prosecution.'" (quoting Pointer, 380 U.S. at 404)).

And Cotto

faces ten years in prison without the chance to confront her key
accuser.

We do not think that sustaining that result based on

YMP's two-year-old chambers testimony — equivocal at best on
whether he could face Cotto in person — would reasonably assure
Cotto and the public that her conviction rests on a fair and just
foundation.
END
For those reasons, we are bound to hold that despite
Congress's promise to grant Puerto Ricans state-like "autonomy"
over their local affairs, see Sánchez Valle, 136 S. Ct. at 1874,
and an "end" to their island's "subordinate status" under federal
law, Cordova, 649 F.2d at 42, the Protect Act — though it refers
to

Puerto

Rico

as

a

"commonwealth"

—

treats

the

island

as

a "territory . . . belonging to the United States" and not as a
member of the Union.

Shell Co., 302 U.S. at 257.

As a result, we

affirm the judge's decision to sustain the indictment and hold
there was sufficient evidence to sustain Cotto's conviction.
But because Cotto's trial violated her Sixth Amendment
rights, we vacate her conviction and remand for a new trial.
-Concurring Opinion Follows-

- 63 -

Case: 18-2013

Document: 00117626826

Page: 64

Date Filed: 08/10/2020

Entry ID: 6359047

APP 64

TORRUELLA, Circuit Judge, Concurring.

Although I fully

agree with the decision reached by the majority (as well as its
reasoning) to reverse the conviction by reason of the violation of
appellant's

Sixth

Amendment

rights,

I

wish

to

express

my

disagreement with the manifestations made regarding Puerto Rico's
constitutional status and related subjects.
The constitutional status of Puerto Rico was established
by the infamous Insular Cases:22 it is that of an unincorporated
territory, whatever that means.

This is not a term you will find

anywhere in the Constitution, but one by which the Supreme Court

22

See generally De Lima v. Bidwell, 182 U.S. 1 (1901) (holding
that once Puerto Rico was acquired by the United States through
cession from Spain it was not a "foreign country" within the
meaning of tariff laws); Goetze v. United States, 182 U.S. 221
(1901) (holding that Puerto Rico and Hawaii were not foreign
countries within the meaning of tariff laws); Dooley v. United
States, 182 U.S. 222 (1901) (holding that the right of the
President to exact duties on imports into the United States from
Puerto Rico ceased with the ratification of the peace treaty
between the United States and Spain); Armstrong v. United States,
182 U.S. 243 (1901) (invalidating tariffs imposed on goods
exported from the United States to Puerto Rico after the
ratification of the treaty between the United States and Spain);
Downes v. Bidwell, 182 U.S. 244 (1901) (holding that Puerto Rico
did not become a part of the United States within the meaning of
Article I, section 8 of the Constitution); Huus v. N.Y. & P.R.
S.S. Co., 182 U.S. 392 (1901) (holding that a vessel engaged in
trade between Puerto Rico and New York is engaged in the coasting
trade and not foreign trade).

- 64 -

Case: 18-2013

Document: 00117626826

Page: 65

Date Filed: 08/10/2020

Entry ID: 6359047

APP 65
of the time23 used to validate Puerto Rico's colonial status of
inequality,24 and by which the Court supported the Manifest Destiny
and American exceptionalism theories that were prevalent during
the imperial period of the United States.

This ruling and the

biased treatment of the residents of Puerto Rico that it promoted
prevailed even after they were granted U.S. citizenship25 and
continues to the present day.

Although it is a status that is

based on a rationale of racial inequality,26 its flawed premises
are ones that the Supreme Court has studiously avoided confronting,
or even modifying, while at the same time creating no small amount
of confusion by its kaleidoscope of decisions as to what this
status stands for or encompasses constitutionally speaking, and
notwithstanding the platitudes that are quoted as the need arises.
A

brief

sample

of

the

confusing

and

contradictory

language that has issued over the last century will suffice to
illustrate this point.

The Court has ruled that under Puerto

23

Almost to a man, the same Court that validated Plessy v.
Ferguson, 163 U.S. 537 (1896), overruled by Brown v. Bd. of Educ.,
347 U.S. 483 (1954).
24
See Juan R. Torruella, The Insular Cases: The Establishment of
a Regime of Political Apartheid, 29 U. Pa. J. Int'l L. 283 (2007).
25
Balzac v. Porto Rico, 258 U.S. 298 (1922).
26
See Downes, 182 U.S. at 282, 286-87 (Brown, J. concurring). See
also Rubin Frances Weston, Racism in U.S. Imperialism: The
Influence of Racial Assumptions on American Foreign Policy, 18931946, at 15 (1972) ("The racism which caused the relegation of the
Negro to a status of inferiority (during the Reconstruction Period)
was to be applied to the overseas possessions of the United
States.").

- 65 -

Case: 18-2013

Document: 00117626826

Page: 66

Date Filed: 08/10/2020

Entry ID: 6359047

APP 66
Rico's

constitutional

status

as

an

unincorporated

territory,

Puerto Rico belongs to but is not a part of the United States;27
that it is "foreign to the United States in a domestic sense";28
that it is a jurisdiction over which Congress has plenary powers29
pursuant to the Territorial Clause;30 that its residents are only
entitled to the constitutional protection of fundamental rights,31
which does not include the right to trial by jury;32 that all the
granting of U.S. citizenship did for the residents of Puerto Rico
was to allow them the right to enter the United States freely, and
there exercise full citizenship rights if they became residents;33
that state juries must reach unanimous verdicts;34 and that Puerto
Rico is like a state for purposes of the Three-Judge Court Act, 28
U.S.C. § 2281,35 but lacks sovereignty in the context of the double

27

Downes, 182 U.S. 244.
Id. at 341.
29
See Harris v. Rosario, 446 U.S. 651 (1980); Califano v. Gautier
Torres, 435 U.S. 1 (1978).
30
U.S. Const. art. IV, § 3: "The Congress shall have the power
to dispose of and make all needful Rules and Regulations respecting
the Territory or other Property belonging to the United
States . . . ."
31
See Calero-Toledo v. Pearson Yacht Leasing Co., 416 U.S. 663,
668-69 n.5. (1973).
32
See Balzac, 258 U.S. at 304-06, 309. But compare Duncan v.
Louisiana, 391 U.S. 145, 149 (1968) (holding that trial by jury is
a fundamental right), and Reid v. Covert, 354 U.S. 1, 8 (1957)
(same, and applies to prosecution of U.S. citizens outside the
U.S.).
33
See Balzac, 258 U.S. at 308.
34
Ramos v. Louisiana, 140 S. Ct. 1390 (2020).
35
Calero-Toledo, 416 U.S. at 673.
28

- 66 -

Case: 18-2013

Document: 00117626826

Page: 67

Date Filed: 08/10/2020

Entry ID: 6359047

APP 67
jeopardy clause notwithstanding that "Congress . . . 'relinquished
its control over [Puerto Rico's] local affairs'" and granted the
island "a measure of autonomy comparable to that possessed by the
States."36

Topping this contradictory list of haves and have nots

we have the most downgrading of all actions validated by the
Supreme Court pursuant to Congress's omnipotent powers under the
territorial clause, wiping out all concepts of local autonomy
and/or "compact" to which it had previously given lip service
(erroneously, in my opinion), and setting Puerto Rico back to the
unvarnished colonial regime that existed in the days of the Foraker
Act37 (which spawned the Insular Cases), imposing on the U.S.
citizens of Puerto Rico an unelected board to run the territory
over its elected government.38
It seems to me that much confusion and disenchantment
would have been avoided had someone bothered to read the extensive
evidence that is available as to what Congress intended and

36

Puerto Rico v. Sánchez Valle, 136 S. Ct. 1863, 1874 (2016)
(quoting Examining Bd. of Engineers, Architects and Surveyors v.
Flores de Otero, 426 U.S. 572, 597 (1976)).
37
31 Stat. 77 (1900).
38 See Puerto Rico Oversight, Management, and Economic Stability
Act (PROMESA), 48 U.S.C. § 2101 et seq.; see also, Fin. Oversight
& Mgt. Bd. for Puerto Rico v. Aurelius Inv., LLC, 140 S. Ct. 1649
(2020).

- 67 -

Case: 18-2013

Document: 00117626826

Page: 68

Date Filed: 08/10/2020

Entry ID: 6359047

APP 68
actually did in enacting the bill that authorized the "creation"
of the "Commonwealth of Puerto Rico."39
Starting with the statute in question, as we must, one
cannot find an iota of language in that legislation, which simply
authorized a modicum of autonomy and self-government to the people
of

Puerto

Rico,

that

supports

the

contention

that

a

new

constitutional status was being created, much less that one was
being established which superseded the existing unincorporated
territorial one.

If that statement is not convincing enough, even

though the language of Public Law 600 self-evidently supports it,
looking at the legislative history in the Congressional Record is
helpful.
On May 17, 1950, the Senate subcommittee considering
S. 3336, the precursor of Public Law 600, heard the testimony of
Puerto Rico's Resident Commissioner in Congress,40 Dr. Antonio
Fernós-Isern, regarding the bill, and specifically regarding the

39

See Juan R. Torruella, The Supreme Court and Puerto Rico: The
Doctrine of Separate and Unequal 144-160 (1985). See also David M.
Helfeld, "The Historical Prelude to the Constitution of the
Commonwealth of Puerto Rico," 21 Rev. Jur. U.P.R. 135 (1952) and
David M. Helfeld, "Congressional Intent and Attitude Toward Public
Law 600 and the Constitution of the Commonwealth of Puerto Rico,"
21 Rev. Jur. U.P.R. 255 (1952), both of which are excellent
contemporaneous accounts of what Congress intended in enacting
Public Law that authorized what became the "Commonwealth of Puerto
Rico," and are based on the evidence in the Congressional Record
and supporting official documentation.
40
Puerto Rico's non-voting Congressman.

- 68 -

Case: 18-2013

Document: 00117626826

Page: 69

Date Filed: 08/10/2020

Entry ID: 6359047

APP 69
"in the nature of a compact" phrase, which was causing uneasiness
because of its Sphinx-like inscrutability. In that respect FernósIsern testified: "S. 3336 would not change the status of the island
of Puerto Rico relative to the United States. . . . It would not
alter the powers of sovereignty acquired by the United States over
Puerto Rico under the terms of the Treaty of Paris."41
He had already testified in a similar manner the previous
day before the House's committee dealing with H.R. 7674,42 the
counterpart to S. 3336, at which hearing the Secretary of the
Interior testified that there would be no change in "Puerto Rico's
political,

social

and

economic

relationship

to

the

United

States,"43 a position also endorsed by Cecil Snyder, an Associate
Justice of the Supreme Court of Puerto Rico, in his own testimony.44
The Senate's report on S. 3336 succinctly stated on this point:
"The measure would not change Puerto Rico's fundamental political,
social, and economic relationship to the United States."45
This

in

a

nutshell

represents

the

understanding

of

Congress regarding Public Law 600, and in addition to which, I

41

Puerto Rico Constitution: Hearing on S. 3336 Before a Subcomm.
of the S. Comm. on Interior & Insular Affs., 81st Cong. 4 (1950).
42
Puerto Rico Constitution: Hearings on H.R. 7674 and S. 3336
Before the H. Comm. on Pub. Lands, 81st Cong. 63 (1950).
43
Id. at 50.
44
Id. at 54.
45
S. Rep. No. 81-1779, at 3 (1950).
- 69 -

Case: 18-2013

Document: 00117626826

Page: 70

Date Filed: 08/10/2020

Entry ID: 6359047

APP 70
refer the reader to the litany of supportive evidence summarized
in the literature cited in footnote 39.
I further disagree with the majority's views, to the
extent it relies on the existence of a "compact" between the United
States and Puerto Rico.

At most, the language used in Public Law

600 is "in the nature of a compact," which is a far cry from saying
there is a "compact," which implies mutually binding promises, a
situation which does not and cannot exist between Puerto Rico and
the United States,46 given Puerto Rico's unincorporated territorial
status, which as previously demonstrated, is still validated by
the Supreme Court.
I join the merits of this case notwithstanding its
reliance on a "commonwealth" jurisdictional basis because, even
ignoring the "commonwealth" issue, there is still jurisdiction to
legislate intra Puerto Rico under the present Supreme Court case
law regarding unincorporated territories.

This alternate view

validates

however,

the

prosecution,

and

does

not,

affect

my

concurring with the majority on the outcome of this appeal.

46

See Dorsey v. United States, 567 U.S. 260, 274 (2012) ("[O]ne
Congress cannot bind a later Congress, which remains free to repeal
[an] earlier [law]."); see also Christina D. Ponsa-Kraus,
Political Wine in a Judicial Bottle: Justice Sotomayor's
Surprising Concurrence in Aurelius (July 27, 2020), 130 Yale L.J.
Forum
_________
(Forthcoming
2020),
available
at
SSRN: https://ssrn.com/abstract=3661668. But see Aurelius Inv.,
LLC, 140 S. Ct. at 1677-78 (Sotomayor, J., concurring in judgment)
(noting that "[t]he truism that 'one Congress cannot bind a later
Congress' appears to have its limits" (citation omitted)).
- 70 -

Case 3:16-cr-00206-DRD Document 34 Filed 10/05/16 Page 1 of 5

APP 71
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
UNITED STATES OF AMERICA,
Plaintiff,
v.

Crim. No. 16-206 (DRD)

YAIRA COTTO-FLORES,
Defendant.

OPINION AND ORDER
I.

Introduction

Yaira Cotto-Flores (“Defendant”) is charged with one count of transportation of a minor with intent
to engage in criminal sexual activity, in violation of 18 U.S.C. § 2423(a). Pending before the Court is
Defendant’s Motion to Dismiss the Indictment. See Docket No. 32.
Defendant’s Motion to Dismiss the Indictment (Docket No. 32) avers that the statute Defendant is
charged under, 18 U.S.C. § 2423(a), is inapplicable to acts occurring entirely within Puerto Rico. Further,
Defendant argues that the statute does not contain language that would justify Congress’ use of its powers
under the Commerce Clause. Finally, Defendant argues, albeit perfunctorily, that criminalizing acts
occurring solely within the Commonwealth of Puerto Rico is a violation of Puerto Ricans’ Equal Protection
rights.
In its response to Defendant’s motion, the United States disagreed with Defendant’s statutory
interpretation (Docket No. 33). The United States pointed to language of Section 2423(a), its legislative
history, and Supreme Court and First Circuit precedent, all of which support the statute’s application to the
case at bar.

1

Case 3:16-cr-00206-DRD Document 34 Filed 10/05/16 Page 2 of 5

APP 72
II.

Analysis

To determine the applicability of a particular statute, the Court must first look at the statutory
language. See Herman v. Hector I. Nieves Transp., Inc., 244 F.3d 32, 34 (1st Cir. 2001)(citing United
States v. Commonwealth Energy Sys. & Subsidiary Cos., 235 F.3d 11, 15 (1st Cir.2000)). Defendant is
charged with knowingly transporting a fourteen year-old male with intent to engage in sexual activity, under
the “White Slave Traffic Act,” otherwise known as the Mann Act. See 18 U.S.C. §2421-2424. Specifically,
Section 2423(a) of the Mann Act reads, in relevant part:
A person who knowingly transports an individual who has not attained the age
of 18 years in interstate or foreign commerce, or in any commonwealth,
territory or possession of the United States, with intent that the individual
engage in prostitution, or in any sexual activity for which any person can
be charged with a criminal offense, shall be fined under this title and
imprisoned not less than 10 years or for life.
18 U.S.C. 2423(a)(emphasis ours). Evidently, Section 2423 penalizes the transportation of a minor with
intent to engage in sexual activity in interstate commerce, in foreign commerce, in any commonwealth of
the United States1, in any territory of the United States, or in any possession of the United States. The
Court’s jurisdiction hinges on the existence of interstate or foreign commerce unless the transportation
occurred wholly within a commonwealth, territory, or possession of the United States.
“In the absence of ambiguity, [the Court] generally [need] not look beyond the plain meaning of the
statutory language.” Herman, 244 F.3d at 34; see also Campbell v. Washington County Technical Coll.,
219 F.3d 3, 6 (1st Cir.2000). Here, no ambiguity exists and the statutory language is dispositive. See In re
Pharm. Indus., 582 F.3d 156, 168 (1st Cir. 2009)(“The Supreme Court has repeatedly emphasized the
importance of the plain meaning rule, stating that if the language of a statute or regulation has a plain and
Puerto Rico is a commonwealth of the United States of America. See Examining Bd. of Engineers, Architects and Surveyors v.
Flores, 426 U.S. 572, 593-594 (1976)(“Congress approved the proposed constitution after adding . . . a condition that any
amendment or revision of the document be consistent with ‘the applicable provisions of the Constitution of the United States’ . . .
[t]he condition was accepted . . . and Puerto Rico assumed ‘Commonwealth’ status.”). Defendant understands this portion of the
statute is invalid, as it criminalizes conduct that occurs entirely within the commonwealth, which contravenes Congress’ powers
under the Commerce Clause.

1

2

Case 3:16-cr-00206-DRD Document 34 Filed 10/05/16 Page 3 of 5

APP 73
ordinary meaning, courts need look no further and should apply the regulation as it is written.” (quoting
Textron Inc. v. Comm'r of Internal Revenue, 336 F.3d 26, 31 (1st Cir.2003))). Thus, Section 2423 applies to
the instant set of facts as it statute for the criminalization of the transportation of minors within a
commonwealth of the United States for the purposes of engaging in sexual acts.
Because the statute is facially unambiguous, the Court need not delve into the issue of legislative
intent. See Antilles Cement Corp. v. Fortuño, 670 F.3d 310, 320-321 (1st Cir. 2012)(“If the language of a
statute . . . has a plain and ordinary meaning, courts need look no further and should apply the regulation
as it is written)(internal citations omitted). However, the Court deems it necessary to illustrate Congress’
intent to have Section 2423 apply to acts within Puerto Rico. The relevant portion of the Mann Act’s
Committee Report’s states the following:
The provisions which make the crime depend upon transportation in
interstate or foreign commerce are made applicable to . . . the territories
and possessions of the United States . . . without regard to the
crossing of district, territorial or state lines, and apply within the
territories to the same extent as they apply in cases outside of the
territories in interstate or foreign commerce.
H.Rep.No. 47, 61st Cong., 2nd Session. S.Rep.No. 886 (emphasis ours). In 1998, Congress added the
phrase “or in any commonwealth” to Section 2423(a) as part of the “Protection of Children from Sexual
Predators Act of 1998.” See Protection of Children from Sexual predators Act of 1998, Pub. L. No. 105-314,
§103, 112 Stat. 2974 (1998). Therefore, Congress’ intent to penalize acts wholly occurring within Puerto
Rico was memorialized in its Committee Report.
At the risk of gilding the lily, the Court notes that case law addressing Defendant’s arguments
supports applying Section 2423 to the case at bar. Specifically, challenges to Section 2423 were first
brought before the Supreme Court of the United States in 1945, when the Court affirmed a defendant’s
conviction under the Mann Act for acts committed entirely within the District of Columbia. See United States
v. Beach, 324 U.S. 193 (1945). In so affirming, the Supreme Court held the following:
3

Case 3:16-cr-00206-DRD Document 34 Filed 10/05/16 Page 4 of 5

APP 74
The Mann Act not only penalizes such transportation in interstate commerce, which
is defined in § 1, 18 U.S.C. §397, 18 U.S.C.A. § 397, as including any commerce
into or out of the District, but it specifically and repeatedly includes in its
prohibition, such transportation ‘in any Territory or in the District of Columbia.’
Congress, in enacting the Mann Act, made it perfectly plain by its Committee
Reports on the proposed legislation that it was intended to apply to transportation
taking place wholly within the District of Columbia. Both Reports declare: ‘All of
the provisions which make the crime depend upon transportation in interstate or
foreign commerce are made applicable to the District of Columbia, the Territories
and possessions of the United States, including the Panama Canal Zone, without
regard to the crossing of district, territorial, or state lines * * *.’ This was recognized
both by the proponents and by the opponents of the bill on the floor of the House.
Congress thus, through the exercise of its police power over the District, followed its
usual policy of extending legislation based on the commerce power to the same
substantive acts taking place wholly within the District.

Beach, 324 U.S. at 195 (emphasis ours)(internal citations omitted). Similar to the Court’s analysis above,
the Supreme Court consulted the legislative record predating the Act and concluded that Congress
intended to criminalize the intra-district transportation of women for illicit purposes.
When its turn came to decide the same question before the Court today, the First Circuit Court of
Appeals adopted the interpretation of our highest tribunal. The First Circuit cited Beach, the Act’s
Committee Report, and the statute itself in affirming a defendant’s conviction under the Mann Act for acts
occurring entirely within Puerto Rico. See Crespo v. United States, 151 F.2d 44 (1st Cir. 1945). The Circuit
Court found that “it cannot be doubted that the [Mann] Act applies to transportation wholly within Puerto
Rico.” Id. at 45.2 Defendant attempts to distinguish the holding in Crespo by pointing out that the defendant
was charged at a time where the statute only contained the term “territory,” as opposed to its current
version, which includes the term “commonwealth.” However, Congress’ decision to have Section 2423(a) to
commonwealths, such as Puerto Rico, defeats Defendant’s argument. Specifically, Defendant is arguing
that Section 2423 applied to territories in 1945, when Puerto Rico was a territory, but no longer applies to
Puerto Rico, a commonwealth, even though Congress added commonwealths to the list of sovereigns
covered by Section 2423. This is an unconvincing proposition, to say the least.
2 Defendant briefly argues that the “portion of the statute criminalizing conduct which takes place wholly within the
commonwealth should be held to be invalid under the commerce clause.” Docket No. 32 at 5. However, Congress has found that
the sexual exploitation of minors “substantially affects interstate commerce.” See, e.g., 22 U.S.C. § 7101(b).

4

Case 3:16-cr-00206-DRD Document 34 Filed 10/05/16 Page 5 of 5

APP 75
III.

Conclusion3

Accordingly, for all the reasons discussed above, Defendant’s Motions to Dismiss the Indictment
(Docket No. 32) is hereby DENIED.
IT IS SO ORDERED.
In San Juan, Puerto Rico, this 5th day of October, 2016.
/s/ DANIEL R. DOMINGUEZ
DANIEL R. DOMINGUEZ
U.S. District Judge

Defendant makes a half-hearted attempt to argue for a dismissal based on the Equal Protection clause of the constitution.
These fundamental constitutional principles have been argued in a skeletal manner without any case law or indication of the
proper standard to be applied. Thus, these arguments will not be considered. See, e.g., Willhauck v. Halpin, 953 F.2d 689, 700
(1st Cir. 1991) (“issues adverted to in a perfunctory manner, unaccompanied by some effort at developed argumentation, are
deemed waived. . . . It is not enough merely to mention a possible argument in the most skeletal way, leaving the court to do
counsel's work. . . . Judges are not expected to be mindreaders. Consequently, a litigant has an obligation to spell out its
arguments squarely and distinctly, or else forever hold its peace.”).
3

5

Case: 18-2013

Document: 00117639903

Page: 1

Date Filed: 09/09/2020

Entry ID: 6365835

APP 76

United States Court of Appeals
For the First Circuit
______________________________
No. 18-2013
UNITED STATES
Appellee
v.
YAIRA TANIES COTTO-FLORES
Defendant - Appellant
_______________________________
Before
Howard, Chief Judge,
Torruella, Lynch, Thompson,
Kayatta and Barron,
Circuit Judges.
___________________________
ORDER OF COURT
Entered: September 9, 2020
Pursuant to First Circuit Internal Operating Procedure X(C), the petition for rehearing en
banc has also been treated as a petition for rehearing before the original panel. The petition for
rehearing having been denied by the panel of judges who decided the case, and the petition for
rehearing en banc having been submitted to the active judges of this court and a majority of the
judges not having voted that the case be heard en banc, it is ordered that the petition for rehearing
and petition for rehearing en banc be denied.

By the Court:
Maria R. Hamilton, Clerk

Case: 18-2013

Document: 00117639903

Page: 2

APP 77
cc:
Luis Rafael Rivera-Rodriguez
Allan Amir Rivera-Fernandez
Julia Meconiates
Elba I. Gorbea Padro
Mariana E. Bauza Almonte

Date Filed: 09/09/2020

Entry ID: 6365835

Case 3:16-cr-00206-DRD Document 306 Filed 09/17/20 Page 1 of 1

APP 78

United States Court of Appeals
For the First Circuit
No. 18-2013
UNITED STATES
Appellee
v.
YAIRA TANIES COTTO-FLORES
Defendant - Appellant

MANDATE
Entered: September 16, 2020
In accordance with the judgment of August 10, 2020, and pursuant to Federal Rule of
Appellate Procedure 41(a), this constitutes the formal mandate of this Court.

By the Court:
Maria R. Hamilton, Clerk

cc:
Mariana E. Bauza Almonte
Elba I. Gorbea Padro
Julia Meconiates
Allan Amir Rivera-Fernandez
Luis Rafael Rivera-Rodriguez

Case 3:16-cr-00206-DRD Document 32 Filed 08/12/16 Page 1 of 15

APP 79
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO

UNITED STATES OF AMERICA,
Plaintiff,
v.

CRIMINAL No. 16-206 (DRD)

YAIRA TANIES COTTO-FLORES,
Defendant.
MOTION TO DISMISS THE INDICTMENT
TO THE HONORABLE DANIEL R. DOMINGUEZ
UNITED STATES DISTRICT JUDGE
FOR THE DISTRICT OF PUERTO RICO
COMES NOW the defendant, Yaira Tanies Cotto-Flores, represented by the
undersigned attorney, and very respectfully states and prays as follows:
I.

Introduction

On March 31, 2016, Ms. Cotto was charged by way of Indictment with
transportation of a minor with intent to engage in criminal sexual activity in violation of
18 U.S.C. § 2423(a). (Docket No. 11). For the reasons set forth below, Ms. Cotto
respectfully moves the Court to dismiss the single-count indictment against her.
II.

Factual and Procedural Background

The affidavit in support of the criminal complaint alleges that Ms. Cotto
transported a minor within the Commonwealth of Puerto Rico with the intent to engage
1

Case 3:16-cr-00206-DRD Document 32 Filed 08/12/16 Page 2 of 15

APP 80
in criminal sexual activity. The minor victim is identified as a 14-year-old male,
hereinafter “John Doe.” (Docket No. 1-1). The affidavit states that Ms. Cotto drove John
Doe to a motel in order to have sexual intercourse. (Id. ¶ 11). John Doe stated to HSI
agents that Ms. Cotto is an English teacher and that he was a student in her English class.
He stated that Ms. Cotto gave him several gifts throughout the school year, including an
acne treatment kit, a rope necklace, and a Bulova wristwatch. He stated that Ms. Cotto
knew him to be a minor when she took him to a motel where they had sexual intercourse.
(Id. ¶ 12). Specifically, John Doe stated that on March 1, 2016 he walked from school to
the Casa de Abuela restaurant in San Lorenzo, Puerto Rico, where Ms. Cotto picked him
up in her vehicle. He sat in the front passenger seat as she drove them to the Motel
Oriente. They exited the vehicle together and proceeded to the motel room. They were
there for approximately one hour, and then Ms. Cotto dropped him off near the
restaurant where she picked him up. (Id. ¶ 13).
Pursuant to the affidavit in support of the complaint and the indictment, the
allegations against Ms. Cotto are limited to two short car rides: from Casa de Abuela
Restaurant to Motel Oriente, and back, totaling approximately 2 miles each way. There is
no allegation that Ms. Cotto traveled with John Doe in or among the several states, or on
or off the island of Puerto Rico.

2

Case 3:16-cr-00206-DRD Document 32 Filed 08/12/16 Page 3 of 15

APP 81
III.

Legal Analysis

An indictment must contain “a plain, concise, and definite written statement of
the essential facts constituting the offense charged.” Fed. R. Crim. P. 7. An indictment is
only sufficient if it contains the elements of the offense, gives notice of the charge, and
provides protection against double jeopardy. Hamling v. United States, 418 U.S. 87, 117
(1974); see Russell v. United States, 369 U.S. 749, 763–64 (1962); United States v. Cerrito, 612
F.2d 588, 591 (1st Cir. 1979).
While it may suffice for an indictment to simply follow the language of the statute
this is only the case if “those words of themselves fully, directly, and expressly, without
any uncertainty or ambiguity, set forth all the elements necessary to constitute the offence
intended to be punished.” Russell v. United States, 369 U.S. 749, 765 (1962); United States v.
Mojica-Baez, 229 F.3d 292, 309 (1st Cir. 2000) (“An indictment may incorporate the words
of a statute to set forth the offense, but the statutory language “must be accompanied
with such a statement of the facts and circumstances as will inform the accused of the
specific offence, coming under the general description, with which he is charged.”)
Rule 12(b)(3) of the Federal Rules of Criminal Procedure dictates that a motion
alleging a defect in the indictment must be raised before trial, but that the Court may hear
a claim that the indictment “fails to invoke the court’s jurisdiction or to state an offense”
at any time while the case is pending. Fed. R. Crim. P. 12(b)(3). An indictment must allege
facts supporting the elements of the offense charged and must inform the defendant of
3

Case 3:16-cr-00206-DRD Document 32 Filed 08/12/16 Page 4 of 15

APP 82
the charges against which she must defend herself. Hamling v. United States, 418 U.S. 87,
117 (1974); United States v. Guerrier, 669 F.3d 1, 3 (1st Cir. 2011). Thus, a pre-trial challenge
to the facial validity of an indictment or to the jurisdictional requirements of an offense
are properly before the court pursuant to Rule 12(b) when the questions presented are
purely questions of law.
a. Lack of Jurisdiction
The Indictment against Ms. Cotto should be dismissed for lack of jurisdiction
because 18 U.S.C. § 2423(a) does not apply to acts wholly within the Commonwealth of
Puerto Rico. Title 18 U.S.C. § 2423(a), is part of the Mann Act, also known as the White
Slave Traffic Act, which states:
A person who knowingly transports an individual who has
not attained the age of 18 years in interstate or foreign
commerce, or in any commonwealth, territory or possession
of the United States, with intent that the individual engage in
prostitution, or in any sexual activity for which any person
can be charged with a criminal offense, shall be fined under
this title or imprisoned not less than 10 years or for life.
The purpose of the Mann Act was to criminalize the transportation of women or
minors in interstate commerce for purposes of sexual exploitation. White Slave Traffic
Act of June 25, 1910 (current version at 18 U.S.C. §§ 2421-2424). It was promulgated in
1910. The statute then outlawed, among others, transporting minors in interstate or
foreign commerce or in the District of Columbia or the territories of the United States for
the purpose of prostitution or debauchery or other immoral acts. In 1945 the power to
4

Case 3:16-cr-00206-DRD Document 32 Filed 08/12/16 Page 5 of 15

APP 83
regulate conduct occurring wholly within Puerto Rico under the Mann Act was upheld
as being consistent with Congress’s plenary authority to legislate under the territorial
clause. Since that time, however, Puerto Rico’s relationship with the United States has
evolved, and Puerto Rico has acquired greater autonomy. The commerce clause has been
specifically held to apply to Puerto Rico and, therefore, presents a real limit upon
Congress’s power to legislate activities which occur wholly within Puerto Rico. The
language of the current version of the statute under which Ms. Cotto was charged,
appears to criminalize conduct occurring solely within a commonwealth which does not
have any obvious or substantial effect on interstate commerce. The portion of the statute
criminalizing conduct which takes place wholly within the commonwealth should be
held to be invalid under the commerce clause according to binding precedent of the
Supreme Court.
The Congressional debates and committee reports on the legislation show that the
Act was a response to the perceived threat of an organized interstate and international
syndicate dedicated to the sexual exploitation of young girls. 45 Cong. Rec. 1037. The
syndicate was said to have “headquarters, and distributing centers, in New York,
Chicago, San Francisco, Denver, and many other American cities.” Id.
The Act was aimed at the abduction, outright sale and deprivation of liberty of
girls and women for the purpose of sexual exploitation. H.Rep. No. 47, p. 10-11; S.Rep.
No. 886, p. 11. The Congressional committees were careful to explain that there was no
5

Case 3:16-cr-00206-DRD Document 32 Filed 08/12/16 Page 6 of 15

APP 84
attempt to regulate immorality in general or prostitution, which was considered to be
within the proper and exclusive domain of state law. H.Rep. No. 47, pp. 1, 2.
A few years after its enactment, the statute was held by the Supreme Court to be a
valid exercise of the legislature’s Commerce Clause power in a 1913 case which did not,
however, challenge the application of the statute to intrastate activity. Hoke v. United
States, 227 U.S. 308 (1913). Subsequent to that decision, the statute was given a broad
reading. Note: Interstate Immorality: the Mann Act and the Supreme Court 56 Yale L.J.
718 (April, 1947), a reading which was approved by the Supreme Court. See United States
v. Beach, 324 U.S. 193 (1945) (Murphy, J. dissenting).
When interpreting a statute, a court must give its words their ordinary meaning.
Leocal v. Ashcroft, 543 U.S. 1, 9 (2004). “[I]n any matter of statutory interpretation, the text
of the statute is our starting point.” United States v. Rosa-Ortiz, 348 F.3d 33, 36 (1st Cir.
2003). More importantly, the Supreme Court has consistently observed that: “when
choice has to be made between two readings of what conduct Congress has made a crime,
it is appropriate, before we choose the harsher alternative, to require that Congress
should have spoken in language that is clear and definite. We should not derive criminal
outlawry from some ambiguous implication.” United States v. Universal C. I. T. Credit
Corp., 344 U.S. 218, 229 (1952); Dowling v. United States, 473 U.S. 207, 215 (1985); Williams
v. United States, 485 U.S. 279, 290 (1982); United States v. Bass, 404 U.S. 336, 347 (1971).
Thus, “the language of the statutes that Congress enacts provides ‘the most reliable
6

Case 3:16-cr-00206-DRD Document 32 Filed 08/12/16 Page 7 of 15

APP 85
evidence of its intent.’” Holloway v. United States, 526 U.S. 1, 6 (1999) (quoting United States
v. Turkette, 452 U.S. 576, 593 (1981)).
Section 2423(a) requires the government to prove that the defendant: “(1)
knowingly transported a minor across state lines, (2) with the intent to engage in sexual
activity with the minor, and (3) that the minor was under eighteen at the time of the
offense.” United States v. Chambers, 441 F.3d 438, 450 (6th Cir. 2006).
In this case, Ms. Cotto argues that transporting a minor between Puerto Rico and
one of the states, a territory, or a foreign country with the specific intent of engaging in
illegal sexual conduct, section 2423(a) would apply because such conduct implicates the
crossing of state lines or borders. Thus, the transportation element explicit in the statute
is satisfied. However, because the element of crossing borders is indispensable, Ms. Cotto
contends that the alleged conduct cannot satisfy the element as a matter of law.
The Mann Act lacks any distinguishable language that would demonstrate that
Congress intended a disparate treatment in Puerto Rico. Although the Act has been
amended on various occasions, Congress has not included language that would clearly
establish that, with regards to Puerto Rico, there is no requirement of border crossing.
The plain language indicates that to satisfy the transportation element, a border must be
crossed to implicate the Act.
In United States v. Broxmeyer, 616 F.3d 120, 128 (2nd Cir. 2010), the Second Circuit
held that when the unlawful offense takes place before crossing state lines, a conviction
7

Case 3:16-cr-00206-DRD Document 32 Filed 08/12/16 Page 8 of 15

APP 86
under section 2423(a) is not possible. “The decisive question [...] is whether a §2423(a)
conviction can lie where the unlawful sexual act occurs before the crossing of state lines,
and where there is no evidence of an intent to commit a sexual act when state lines were
crossed. We hold that it cannot.” (Id. at 129).
In no part of section 2423(a) do we find the term “within,” which would be
indispensable to adduce that, contrary to the general rule, in Puerto Rico traffic across
borders was unnecessary, and that transportation within a territory satisfies the element
simply by virtue of being a territory. Implying such an indispensable term would
effectively negate an essential element of the offense as written. Congress has had ample
opportunity to distinguish the element of transportation when it concerns Puerto Rico;
however, it chose not to do so.
In this case, the alleged transportation concerns a distance of less than three miles.
More importantly, the alleged conduct took place entirely within the island. In fact,
within a municipality. Thus, there was no interstate transportation, and absent language
in section 2423(a) expressly stating that only in cases occurring in Puerto Rico that
essential element was unnecessary, the statute is inapplicable on its own terms.
Two important cases, United States v. Beach, 324 U.S. 193 (1945) and Crespo v United
States, 151 F2d. 44 (1st Cir. 1945), are relevant but distinguishable. In Beach, the Supreme
Court held that the prior version of the Mann Act applied to cases within the District of
Columbia. In Crespo, the Supreme Court disregarded a challenge to the power of
8

Case 3:16-cr-00206-DRD Document 32 Filed 08/12/16 Page 9 of 15

APP 87
Congress to intervene in local matters, finding the Mann Act applied to acts within Puerto
Rico. But this case did not rely on the Congress’s power under the Commerce Clause, nor
was the commerce power even raised in that case.
As to Beach, the holding was circumscribed to the offense of prostitution and the
validity of applying the Mann Act to the District of Columbia, even though there were
already local laws prohibiting prostitution. The Court determined that Congress
extended said legislation based on the commerce clause. Beach, 324 U.S. 195-196.
However, in this case Ms. Cotto is not charged with prostitution, or exchanging money
for sex. There is no aspect of commerce affected by the alleged conduct. Therefore, absent
any commercial activity such as the one examined by Beach –prostitution - Beach is not
applicable.
After Crespo, Puerto Rico assumed “Commonwealth” status. Under its
Commonwealth status, “Puerto Rico, like a state, is an autonomous political entity,
‘sovereign over matters not ruled by the Constitution.’” Rodriguez v. Popular Democratic
Party, 457 U.S. 1, 8 (1982). “[T]he purpose of Congress in the 1950 and 1952 legislation
was to accord to Puerto Rico the degree of autonomy and independence normally
associated with States of the Union....” Examining Board v. Flores de Otero, 426 U.S. 572, 594
(1976).
The Mann Act was also amended several times. It has always conserved some
variation on the language “[transportation] in interstate or foreign commerce, or in any
9

Case 3:16-cr-00206-DRD Document 32 Filed 08/12/16 Page 10 of 15

APP 88
Territory or in the District of Columbia.” In 1986 this language was amended to eliminate
reference to the District of Columbia and mentioned only movement of a minor “in
interstate or foreign commerce, or in any Territory or Possession of the United States...”
100 Stat 3511. An amendment in 1998 added the term “commonwealth” to the provision
which would now cover transportation ”in interstate or foreign commerce, or in any
commonwealth, territory or possession of the United States...” The Committee Report
made no mention of the addition of the term “commonwealth” and stated only that the
alteration of the language of this provision was to increase the prison sentences
applicable. H. Rep. 105-557, 105th Cong. 2nd Sess. Reprinted in U.S.C.A.A.N. p. 688.
The legislative history is not helpful in making sense of Congress’ intention at the
time of this amendment. There are no findings as to activities relating to human
trafficking in Puerto Rico or in any other commonwealth. There are no findings that
activities which occur wholly within a state or commonwealth or district or territory or
any other political or geographic subdivision, substantially affects the type of human
trafficking that the Mann Act sought to target.
Had it been the intent of Congress to ensure that the Act applied to activities
occurring wholly within Puerto Rico and the Northern Mariana Islands, it could have
said so explicitly. Instead it chose to use the term “commonwealth,” a term which may
be meaningful to citizens in Puerto Rico, but which does not have any specific geopolitical
significance generally speaking, or in the context of United States law, and which applies,
10

Case 3:16-cr-00206-DRD Document 32 Filed 08/12/16 Page 11 of 15

APP 89
not only to Puerto Rico and the Northern Mariana Islands, but also to the Commonwealth
of Massachusetts, the Commonwealth of Pennsylvania, and the Commonwealth of
Virginia which are states of the union, as well as to the Commonwealth of Australia and
the Commonwealth of the Bahamas which are independent nations. See Igartua De La Rosa
v. United States, 229 F.3d 80, 89 n. 16 (1st Cir. 2000) (Torruella, J. concurring). So now,
according to the plain language of the statute, the Mann Act’s prohibition applies to the
intrastate activities of Puerto Rico, Massachusetts, Pennsylvania, and Virginia, but not of
New York, Illinois, California, Colorado, etc.
The facts as alleged by the government do not amount to an interference with
interstate commerce, considering “the caveat given by the Supreme Court in United States
v. López, 514 U.S. 549, 557 (1995), and United States v. Morrison, 529 U.S. 598, 618 (2000),
against expanding the interstate commerce reach into what has been clearly reserved to
local police power jurisdiction.” Rivera-Rivera v. United States, 11-2132 *12-13 (D.P.R. June
29, 2016) (Torruella, J. dissenting).
b. The Commerce Clause Applies to Puerto Rico
The statute in question, 18 U.S.C. 2423(a), purports to criminalize such conduct
under Congress’s power to regulate interstate commerce. The statute contains no
jurisdictional element whatsoever. The statute requires an exchange of no monetary
amounts, no distances (the transportation could occur over one or two city blocks), no
use of the instrumentalities or channels of state commerce (cars, highways, telephones),
11

Case 3:16-cr-00206-DRD Document 32 Filed 08/12/16 Page 12 of 15

APP 90
no description of any circumstances whatsoever that would connect this type of conduct
to interstate commerce in any way.
There are three broad categories of activity that Congress may regulate under its
commerce power: (1) Congress may regulate the use of the channels of interstate
commerce, (2) Congress is empowered to regulate and protect the instrumentalities of
interstate commerce, or persons or things in interstate commerce, even though the threat
may come only from intrastate activities, and (3) Congress' commerce authority includes
the power to regulate those activities having a substantial relation to interstate commerce,
i.e., those activities that substantially affect interstate commerce. United States v. Lopez,
514 U.S. 549, 558 (1995). The first two categories of cases may be disposed of since this is
not a regulation of the use of the channels of interstate commerce, nor is it an attempt to
prohibit the interstate transportation of a commodity through the channels of commerce.
Id. at 559.
Nor does the statute by its terms purport to regulate economic or commercial
activity. Although the statute includes prostitution, the statute by its terms encompasses
“any sexual activity for which any person can be charged with a criminal offense.” 18
U.S.C. §2423(a). As mentioned above this could include child molestation, adultery,
indecent exposure, elopement, etc. The statute cannot, therefore, be sustained under cases
upholding regulations of activities that arise out of or are connected with a commercial
transaction, which viewed in the aggregate, substantially affects interstate commerce.
12

Case 3:16-cr-00206-DRD Document 32 Filed 08/12/16 Page 13 of 15

APP 91
Lopez, 514 U.S. at 561; see also United States v. Morrison, 529 U.S. 598, 611 (2000). Nor, as
mentioned above, does the statute contain a jurisdictional element which would ensure,
through case-by-case inquiry, that the conduct in question affects interstate commerce.
Lopez, 514 U.S. at 561; Morrison, 529 U.S. at 613.
There is no support in the legislative history of the Mann Act or its amendments,
nor in the explicit terms of the provision in question, for a determination that the statutory
language in this case can be justified under the interstate commerce power. This statute
unambiguously purports to outlaw activity occurring wholly within the Commonwealth
of Puerto Rico which is entirely local in character, extension and effect.
c. Violation of the Fourteenth Amendment of the U.S. Constitution
Ms. Cotto also challenges section 2423(a) on Equal Protection grounds. “[T]he
protections accorded by either the Due Process Clause of the Fifth Amendment or the
Due Process and Equal Protection Clauses of the Fourteenth Amendment apply to
residents of Puerto Rico.” Examining Bd. of Engineers, Architects and Surveyors v. Flores de
Otero, 426 U.S. 572, 600 (1976). Because Puerto Rico has been recognized as an
“incorporated territory of the United States, a heightened level of scrutiny is available to
protect the Commonwealth and its citizens from discriminatory federal legislation.”
Consejo de Salud Playa de Ponce v. Rullan, 586 F.Supp.2d 22, 44 (D.P.R. 2008).
Interpreting section 2423 to negate an essential element of the crime – crossing
state lines – when the alleged offense occurs wholly inside the island, would constitute

13

Case 3:16-cr-00206-DRD Document 32 Filed 08/12/16 Page 14 of 15

APP 92
disparate treatment of Puerto Rico citizens and is untenable under the Equal Protection
Clause’s heightened level of scrutiny. Furthermore, even under the proposition espoused
in Harris v. Rosario, 446 U.S. 651 (1980), i.e., discrimination is allowed under a rational
basis standard, and in this case there is no rational basis.
IV.

Conclusion

If Congress had intended for Section 2423 to apply to conduct wholly within
Puerto Rico, especially conduct which does not implicate interstate or foreign commerce,
it could have legislated accordingly. Because the plain language of the statute does not
indicate that Congress intended the Section 2423 to apply to such conduct, or that it
operate differently in Puerto Rico than it does in the rest of the Continental United States,
applying the statute as charged against Ms. Cotto is inappropriate and offends the Equal
Protection Clause of the United States Constitution. Therefore, the Court should dismiss
the one-count indictment against Ms. Cotto.
WHEREFORE the defendant, Ms. Cotto, respectfully requests the Honorable
Court take note of this Motion to Dismiss and grant the same.
I HEREBY CERTIFY that on this date I electronically filed the present motion with
the Clerk of Court using the CM / ECF system, which will send electronic notification of
said filing to all parties of record.
RESPECTFULLY SUBMITTED.
In San Juan, Puerto Rico, this 12th day of August, 2016.
14

Case 3:16-cr-00206-DRD Document 32 Filed 08/12/16 Page 15 of 15

APP 93
S/Leonardo M. Aldridge
Leonardo M. Aldridge
CJA Counsel for the Defendant
USDC-PR 300011
200 Ave. Jesus T. Pinero 17-P
San Juan, PR 00918
Phone: (787) 370-9024
E-mail: leoaldridge@hotmail.com

15

Case 3:16-cr-00206-DRD Document 169 Filed 04/25/18 Page 1 of 15

APP 94
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
UNITED STATES OF AMERICA

* CRIMINAL NO. 16-206 (DRD)
*
Plaintiff
*
*
V.
*
*
YAIRA TANIES COTTO-FLORES
*
*
Defendant
*
*
*******************************

DEFENDANT’S SECOND MOTION TO DISMISS
TO THE HONORABLE COURT:
COMES NOW, the defendant YAIRA TANIES COTTO-FLORES, by and through
the undersigned attorney, and very respectfully ALLEGES and PRAYS as follows:

I. Introduction
Defendant Ms. Cotto presents this motion to dismiss pursuant to both U.S. v.
Edwin Maldonado Burgos, 844 F.3d 339 (1st Cir. 2016) and Federal Rule of Criminal
Procedure 12(b)(2) as this Court lacks jurisdiction and authority to adjudicate the
charges.
On March 31, 2016, Ms. Cotto was charged by way of an Indictment with
transporting of a minor with the intent to engage in criminal sexual activity in violation of
18 U.S.C. § 2423(a). See Docket No. 11. For the reasons set forth below, Defendant
Cotto respectfully moves this Court to dismiss the single-count indictment against her.

II. Factual and Procedural Background

Case 3:16-cr-00206-DRD Document 169 Filed 04/25/18 Page 2 of 15

APP 95
The affidavit in support of the criminal complaint alleges that Ms. Cotto
transported a minor within the Commonwealth of Puerto Rico with the intent to engage
in criminal sexual activity.

The minor victim is identified as a 14-year-old male,

hereinafter “John Doe.” (Docket No. 1-1). The affidavit states that Ms. Cotto drove John
Doe to a motel in order to have sexual intercourse. (Id. ¶ 11). John Doe stated to HSI
agents that Ms. Cotto is an English teacher and that he was a student in her English
class. He stated that Ms. Cotto gave him several gifts throughout the school year,
including an acne treatment kit, a rope necklace, and a Bulova wristwatch. He stated
that Ms. Cotto knew him to be a minor when she took him to a motel where they had
sexual intercourse. (Id. ¶ 12). Specifically, John Doe stated that on March 1, 2016 he
walked from school to the Casa de Abuela restaurant in San Lorenzo, Puerto Rico,
where Ms. Cotto picked him up in her vehicle. He sat in the front passenger seat as she
drove them to the Motel Oriente. They exited the vehicle together and proceeded to the
motel room were they allegedly had sex. They were there for approximately 3 hours,
and then Ms. Cotto dropped him off near the restaurant where she picked him up.
(Testimony of John Doe during trial on April 24, 2018).
Pursuant to the affidavit in support of the complaint and the indictment, the
allegations against Ms. Cotto are limited to two short car rides: from Casa de Abuela
Restaurant to Motel Oriente, and back, totaling approximately 2 miles each way. There
is no allegation that Ms. Cotto traveled with John Doe in or among the several states, or
on or off the island of Puerto Rico. (Testimony of John Doe during trial on April 24,
2018).

Page 2 of 15

Case 3:16-cr-00206-DRD Document 169 Filed 04/25/18 Page 3 of 15

APP 96
On August 12, 2016 court appointed counsel Leo Aldridge filed a motion to
dismiss correctly pointing out the deficiency of jurisdiction of the indictment. Counsel
Aldridge correctly argued, based on then available precedent, that 18 U.S.C. § 2423(a)
does not apply to acts wholly within the Commonwealth of Puerto Rico. See Docket No.
32. The Government opposed on September 1, 2016. The Government’s opposition to
dismissal heavily relied on Crespo v. United States, 151 F.2d 144 (1st Cir. 1945)
upholding that the Mann Act “applies to transportation wholly within Puerto Rico” and
mentioning United States v. Lebrón-Caceres, 157 F. Supp. 3d 80 (D. Puerto Rico 2016)
which expressly disavows the use of Córdova & Simopietri Insurance Agency, Inc. v.
Chase Manhattan Bank N.A., 649 F.2d 36 (1st Cir. 1981) to analyze the Mann Act1.
See Docket No. 33. This Honorable Court denied defendant’s request for dismissal
using Crespo as the cornerstone of its rationale stating that it was “binding precedent to
this District that transportation across state lines is not an essential element for a
conviction under Title 18, United States Code, Section 2423(a) from acts that take place
wholly within the Commonwealth of Puerto Rico.” See Docket No. 34.
Unbeknownst to the parties and the Honorable District Court, on September 21,
2016 the First Circuit Court of Appeals elevated and decided the case of US v. Edwin
Maldonado-Burgos supra, concluding that the post-Crespo decision of Cordova, blazes
a trail that the Court must follow in cases such as this. Applying Cordova's analytical
framework, the First Circuit held that § 2421(a) does not apply to transportation that
occurs solely within Puerto Rico.

Accordingly, the First Circuit affirmed the District

1

Explaining Cordova the brother District Court through the voice of Honorable Judge
Pedro Delgado expressly states: “that analysis [the one used by Cordova] does not
necessarily lead to the same conclusion here.”
Page 3 of 15

Case 3:16-cr-00206-DRD Document 169 Filed 04/25/18 Page 4 of 15

APP 97
Court's dismissal (which originated under this same Courtroom under Honorable Judge
D. Dominguez) of the indictment through the rationale of Cordova not the one of
Crespo.

III. Legal Analysis
The Court may hear a claim that the indictment “fails to invoke the court’s
jurisdiction or to state an offense” at any time while the case is pending. Fed. R. Crim.
P. 12(b)(2) and 12(b)(3)(B)(v). An indictment must allege facts supporting the elements
of the offense charged and must inform the defendant of the charges against which she
must defend herself. Hamling v. United States, 418 U.S. 87, 117 (1974); United States
v. Guerrier, 669 F.3d 1, 3 (1st Cir. 2011). Thus, a pre-trial challenge to the facial validity
of an indictment or to the jurisdictional requirements of an offense are properly before
the court pursuant to Rule 12(b) when the questions presented are purely questions of
law.
The issue is whether 18 U.S.C. § 2423(a) applies differently to the district of
Puerto Rico than any other state in the United States. We submit that the statute
applies exactly as it would in any other State of the Union. Under a cursory reading of
the statute, the defendant notices that the statute does not specifically mention that the
conduct will apply specifically to the jurisdiction of Puerto Rico. The case law also
indicates that the travel across interstate lines is required to establish a federal nexus,
something that is completely lacking here.

a. Lack of Jurisdiction

Page 4 of 15

Case 3:16-cr-00206-DRD Document 169 Filed 04/25/18 Page 5 of 15

APP 98
The Indictment against Ms. Cotto should be dismissed for lack of jurisdiction
because 18 U.S.C. § 2423(a) does not apply to acts wholly within the Commonwealth of
Puerto Rico. Title 18 U.S.C. § 2423(a), is part of the Mann Act, also known as the
White Slave Traffic Act, which states:
A person who knowingly transports an individual who has not
attained the age of 18 years in interstate or foreign
commerce, or in any commonwealth, territory or possession
of the United States, with intent that the individual engage in
prostitution, or in any sexual activity for which any person can
be charged with a criminal offense, shall be fined under this
title or imprisoned not less than 10 years or for life.
The purpose of the Mann Act was to criminalize the transportation of women or
minors in interstate commerce for purposes of sexual exploitation. White Slave Traffic
Act of June 25, 1910 (current version at 18 U.S.C. §§ 2421-2424). The language of the
current version of the statute, under which Ms. Cotto was charged, appears to
criminalize conduct occurring solely within a commonwealth (not specifically Puerto
Rico). The Mann Act does not specifically names Puerto Rico as it was aimed at the
transportation of an individual across state lines for the purpose of prostitution.
Mortensen v. United States, 322 US 377 (1944), rightly indicated that the act was aimed
primarily at the use of interstate commerce to criminalize the conduct of while slave
trafficking.

So, the Mann Act is directed to criminalize interstate and/or foreign

transportations of individuals, not local domestic transportation.
The portion of the statute criminalizing conduct, which takes place wholly within
the commonwealth, should be held to be invalid under the commerce clause according
to binding precedent of the Supreme Court and Maldonado-Burgos.

Page 5 of 15

Case 3:16-cr-00206-DRD Document 169 Filed 04/25/18 Page 6 of 15

APP 99
b. The evolution of the relationship between the United States and Puerto
Rico
In 1898, following the Spanish-American War, Puerto Rico became a territory of
the United States. Puerto Rico v. Sánchez Valle, 136 S. Ct. 1863 at 1868 (2016). Over
the years, Congress gradually increased Puerto Rico's autonomy over its local affairs,
id., but "Congress retained major elements of sovereignty" over the island, Cordova,
649 F.2d at 39.
Then, in 1950, Congress passed legislation — which later became part of the
Federal Relations Act (FRA), see Act of July 3, 1950, Pub. L. 81-600, § 4, 64 Stat. 319
(codified at 48 U.S.C. §§ 731b-731e) — that authorized the people of Puerto Rico to
adopt a constitution. See Sánchez Valle, 136 S. Ct. at 1868; Examining Bd. of Eng'rs,
Architects, & Surveyors v. Flores de Otero, 426 U.S. 572, 592-94, (1976). Two years
later, the Puerto Rico Constitution became law when it received congressional approval.
Act of July 3, 1952, Pub. L. No. 82-447; see Cordova, 649 F.2d at 40. The clear
congressional purpose behind "the 1950 and 1952 legislation was to accord to Puerto
Rico the degree of autonomy and independence normally associated with States of the
Union." Examining Bd., 426 U.S. at 594.

Reflecting this purpose, the Puerto Rico

Constitution "created a new political entity, the Commonwealth of Puerto Rico,"
Sánchez Valle, 136 S. Ct. at 1869 — "a distinctive, indeed exceptional, status," id. at
1874. ("Congress in 1952 'relinquished its control over [the Commonwealth's] local
affairs[,] grant[ing] Puerto Rico a measure of autonomy comparable to that
possessed by the States.'" (quoting Examining Bd., 426 U.S. at 597)).

Page 6 of 15

Case 3:16-cr-00206-DRD Document 169 Filed 04/25/18 Page 7 of 15

APP 100
This evolution has been hand in hand with the passage of numerous laws that
specifically apply to Puerto Rico. “The statutory laws of the United States not locally
inapplicable, except as hereinbefore or hereinafter otherwise provided, shall have the
same force and effect in Puerto Rico as in the United States…” See 48 U.S.C. §734.
“The rights, privileges, and immunities of citizens of the United States shall be
respected in Puerto Rico to the same extent as though Puerto Rico were a state
of the Union and subject to the provisions of paragraph 1 of section 2 of Article IV
of the Constitution of the United States.” See 48 U.S.C. §737.

c. The phrase “any commonwealth” does not make §2423(a) congressional
intent any more specific as to conduct occurring solely within Puerto Rico
"The legal relationship between Puerto Rico and the United States is far from
clear and fraught with controversy." United States v. Lopez Andino, 831 F.2d 1164,
1168 (1st Cir.1987).2 There is no critical distinction between the two statutes by adding
the label of “ any commonwealth” to 2423(a), but not to 2421(a). It is clear that 18
U.S.C §2423(a) lacks specific designation as to Puerto Rico (the name Puerto Rico is
not mentioned within the statute).
In 1952, the name of Puerto Rico changed to “Estado Libre Asociado de Puerto
Rico” (which literally translated means “Associated Free State of Puerto Rico”), yet is
known or referred to in English as “Commonwealth of Puerto Rico.” Between 1900 and
1932, Puerto Rico was officially misspelled as “Porto Rico” as a result of the incorrect
2

The Government has made claims before that Puerto Rico is a "territory" under §
2421(a); hence, notwithstanding Puerto Rico's commonwealth title, the statute should
continue to apply to transportation occurring entirely within Puerto Rico. See Opinion
and Order in U.S. v. Maldonado-Burgos, 130 F.Supp.3d 498 (DPR 2015) at Docket No.
112. The Government must take a clearer stance in today’s case.
Page 7 of 15

Case 3:16-cr-00206-DRD Document 169 Filed 04/25/18 Page 8 of 15

APP 101
spelling of the Island’s name in the English version of the Treaty of Paris in 1898. See,
Igartúa de la Rosa v. United States, 417 F.3d 145, 161 n.28 (1st Cir. 2005)(Torruella, J.,
dissenting)(so noting); José A. Cabranes, Citizenship and the American Empire: Notes
on the Legislative History of the United States Citizenship of Puerto Ricans, 127
U.Pa.L.Rev. 391, n.1 (1979)(same). The incorrect spelling was thereafter used in the
Foraker Act in 1900, after which it took 32 years to persuade Congress that “Porto” is
Portuguese and that the correct Spanish name should be restored. Igartúa-de la Rosa,
417 F.3d at 161 n.28 (so stating). This was finally done by joint resolution in 1932. See,
Joint Resolution to change the name of “Porto Rico” to “Puerto Rico,” Act of May 17,
1932, ch. 190, 47 Stat. 158 (1932). Contrary to what the phrase “Associated Free
State” suggests, Puerto Rico’s relationship with the United States is not one of “free
association” nor is it one of a “commonwealth”.

The United States does have

relationships with free associated republics: The Federated States of Micronesia, The
Republic of the Marshall Islands, and The Republic of Palau.
The

word

“Commonwealth”,

when

translated

into

Spanish,

becomes

“Mancomunidad” which is defined as a legal entity composed of municipalities or
provinces. There is not one political body or legal entity in the island that refers to the
Government of Puerto Rico, as “Mancomunidad.”
Obviously, calling Puerto Rico the “Associated Free State of Puerto Rico” or the
“Colony of Puerto Rico” would raise some eyebrows. The term “commonwealth” must
then have been coined in Congress somewhere during the discussion of the P.L. 81600 authorizing Puerto Rico to hold a constitutional convention. In 1952 the term was
first used by Puerto Rico as its formal name in English ("Commonwealth of Puerto

Page 8 of 15

Case 3:16-cr-00206-DRD Document 169 Filed 04/25/18 Page 9 of 15

APP 102
Rico"), a name given to translate and replace the long-winded “Associated Free State of
Puerto Rico”.
The true intention of giving Puerto Rico such formal name in English is unknown.
Be it compromise, political correctness or else, there is no doubt that up to this date the
term “commonwealth” is a hollow one that does little to address the issue and clear the
air of any confusions. Not withstanding its use, the term “commonwealth” is devoid of
any political or logical rationale when used in the Spanish language of the island. As
such, the fact that Congress added the phrase “any commonwealth” to the 2423(a)
does not specifically define Congress’s intent to apply the Mann Act in transportation
occurring solely within Puerto Rico nor does any provision of the “Act explicitly mentions
Puerto Rico”. See Maldonado-Burgos, supra (1st Cir. 2016).
More interesting is the fact that this same Court has already decided that the
“Commonwealth of Puerto Rico, […] is a Territory and Possession of the United States”.
See U.S. v. Maldonado-Burgos, 130 F.Supp.3d 498 (DPR 2015) at Docket No. 112
written by Honorable Judge D. Dominguez. In conclusion, when a something is equal to
another something it makes little sense to distinguish between them for one purpose or
another (Commonwealth = Terrritory and/or Possession). Yet a valuable distinction is
made by Sanchez-Valle when it states that the “commonwealth” enjoyed by the island is
a “distinctive, indeed exceptional, status”.3 This distinctive and exceptional status of the
island of Puerto Rico opens the doors to the application of Cordova.
3

Notwithstanding this "Commonwealth" label, the Supreme Court has continued to
recognize that Congress "is empowered under the Territory Clause of the Constitution
... to ‘make all needful Rules and Regulations respecting the Territory... belonging to
the United States.’" Harris v. Rosario, 446 U.S. 651, 652, 100 S.Ct. 1929, 64 L.Ed.2d
587 (1980); see also Califano v. Gautier Torres, 435 U.S. 1, 3 n. 4, 98 S.Ct. 906, 55
L.Ed.2d 65 (1978); Juan R. Torruella, The Supreme Court and Puerto Rico: The
Page 9 of 15

Case 3:16-cr-00206-DRD Document 169 Filed 04/25/18 Page 10 of 15

APP 103

d. Crespo is out and Cordova is in
Crespo — which was decided several years before the adoption of the Puerto
Rico Constitution — does not govern the analysis to determine the applicability of the
Mann Act to Puerto Rico and the statutory interpretation of §2423(a). Instead, Cordova
sets forth the legal framework that controls this case. See Maldonado-Burgos, 844 F.3d
at 342 for a more in depth historical background on Cordova.
After reviewing the events culminating in the adoption of the Puerto Rico
Constitution and explaining that this history evidenced "a general [c]ongressional
intent to grant Puerto Rico state-like autonomy," the First Circuit announced that, in
order for a statute to treat Puerto Rico as a territory after the island adopted its
constitution, "there would have to be specific evidence or clear policy reasons
embedded in a particular statute to demonstrate a statutory intent to intervene
more extensively into the local affairs of post-Constitutional Puerto Rico than into
the local affairs of a state." Id. at 42.

e. Using Cordova… does § 2423(a) treats Puerto Rico as a state, as a
commonwealth or as territory?
Doctrine of Separate and Unequal (1985); Juan R. Torruella, ¿Hacia dónde vas Puerto
Rico?, 107 Yale L.J. 1503 (1998); Juan R. Torruella, The Insular Cases: The
Establishment of a Regime of Political Apartheid, 29 U. Pa. J. Int'l L. 283 (2007); and
Juan R. Torruella, Ruling America's Colonies: The Insular Cases, 32 Yale L. & Pol'y
Rev. 57 (2013); cf. Quinones, 758 F.2d at 42 ("Thus, in 1952, Puerto Rico ceased being
a territory of the United States subject to the plenary powers of Congress as provided in
the Federal Constitution"). This is so because Puerto Rico is "constitutionally a
territory." Franklin California Tax-Free Trust v. Puerto Rico, 805 F.3d 322, 344, 2015
WL 4079422 *14 (1st Cir.2015). See U.S. v. Maldonado-Burgos, 130 F.Supp.3d 498
(DPR 2015) at Docket No. 112.
Page 10 of 15

Case 3:16-cr-00206-DRD Document 169 Filed 04/25/18 Page 11 of 15

APP 104
This case requires the Court to answer a question of congressional intent, see
Cordova, 649 F.2d at 39, not one of the constitutional relationship between Puerto Rico
and the United States.
The issue in this case is whether Puerto Rico is a “commonwealth, territory or
possession of the United States” under §2423(a). Defendant understands that by only
adding the label “any commonwealth” to §2423(a) there is not a sufficient indicator
under the Cordova analysis of congressional intent to intervene more into the local
affairs of post-constitutional Puerto Rico.
The Cordova analysis requires an answer to the question of "whether the [Mann]
Act's framers, if aware of Puerto Rico's current constitutional status, would have
intended it to be treated as a 'state' or 'territory' under the Act."
Maldonado-Burgos, 844 F.3d at 347 (1st Cir. 2016).

United States v.

This attempt to discern

congressional intent behind the statute under review comes with a unique twist: an
assumption that, when enacting the statute, Congress was aware of how the
relationship between Puerto Rico and the United States would develop in the decades
to come. See id.; Cordova, 649 F.2d at 39.
There are "two possible avenues" by which the Court might reach the
conclusion that Congress intended to treat Puerto Rico differently than the states: "1) an
express direction in the statutory text or 2) some other compelling reason.” The
first avenue is closed because the Mann Act does not expressly indicate that Puerto
Rico is to be treated as any commonwealth, territory, possession or that transportation
that occurs solely within Puerto Rico suffices. We remind the Court that the term “any
commonwealth” by itself does not create an indicator of congressional intent that Puerto

Page 11 of 15

Case 3:16-cr-00206-DRD Document 169 Filed 04/25/18 Page 12 of 15

APP 105
Rico must be treated differently than the states as we must first submit the statute to the
Cordova analysis4.
All that remains for the government, therefore, is the second avenue — "some
other compelling reason" — which requires "specific evidence or clear policy reasons
embedded in a particular statute to demonstrate a statutory intent to intervene more
extensively into the local affairs of post-Constitutional Puerto Rico than into the local
affairs of a state.” The Mann Act, resting in the word “any commonwealth” clearly does
not meet the second prong of providing “specific evidence or clear policy reasons
embedded in a particular statute to demonstrate a statutory intent to intervene more
extensively into the local affairs of post-Constitutional Puerto Rico than into the local
affairs of a state.” In Cordova, the First Circuit Court of Appeals recognized Congress's
intent to legislate as broadly as possible, 649 F.2d at 39, but the Court nonetheless
determined that there was no specific evidence or clear policy reason embedded in the
Sherman Act from which to conclude that Congress intended the Act to intervene more
extensively into the local affairs of Puerto Rico than into the local affairs of a state, see
id. at 41-42. That same conclusion must be reached here. The fact that Congress in
1910 intended to legislate to the full extent of its powers in passing the Mann Act fails in
and of itself "to demonstrate a statutory intent to intervene more extensively into the
local affairs of post-Constitutional Puerto Rico than into the local affairs of a state." Id. at
42.

Before the bill was enacted, a floor amendment proposed adding the word
"commonwealth" to the phrase "in any territory or possession of the United States" in
§2423(a); the floor amendment passed without explanation. 144 Cong. Rec. S12,262
(daily ed. Oct. 9, 1998) (statement of Sen. Coats).
4

Page 12 of 15

Case 3:16-cr-00206-DRD Document 169 Filed 04/25/18 Page 13 of 15

APP 106
The Mann Act's failure to include Puerto Rico explicitly distinguishes this case
from United States v. Beach, 324 U.S. 193, 195, 65 S. Ct. 602, 89 L. Ed. 865 (1945)
(per curiam), in which the Supreme Court held that the Act covered transportation that
occurs solely within the District of Columbia. When Beach was decided, the Mann Act
expressly prohibited illicit transportation "in the District of Columbia" [yet it does not do
so in Puerto Rico]. Pub. L. No. 61-277, § 2, 36 Stat. at 825; see also Beach, 324 U.S. at
195.
Congressional intent under the Cordova analysis, and absent “an express
direction in the statutory text or some other compelling reason”, was to treat Puerto Rico
as a state for purposes of §2423(a). The general congressional intent is to grant Puerto
Rico state-like autonomy and in order for a statute to treat Puerto Rico as a territory
after the island adopted its constitution, "there would have to be specific evidence or
clear policy reasons embedded in a particular statute to demonstrate a statutory intent
to intervene more extensively into the local affairs of post-Constitutional Puerto Rico
than into the local affairs of a state.

Here, we are completely devoid of specific

evidence or clear policy reasons embedded in within §2423(a) to demonstrate a
statutory intent to treat Puerto Rico differently.
The conclusion that this Court should arrive to under Maldonado Burgos and
after the application of Cordova is that there is no evident congressional intent to treat
Puerto Rico differently than a State of the Union and such difference would run afoul of
other specific statutes that define the “exceptional” relationship and treatment afforded
by Congress to Puerto Rico. Without the specific evidence or clear policy reasons that
Cordova requires, the Mann Act cannot be applied to conduct occurring solely in Puerto

Page 13 of 15

Case 3:16-cr-00206-DRD Document 169 Filed 04/25/18 Page 14 of 15

APP 107
Rico. Such local application of the Act over conduct occurring solely in Puerto Rico
would be different to the interstate or foreign conduct required for the States and would
treat Puerto Rico unequally without an express direction in the statutory text or some
other compelling reason.

f. 18 U.S.C. § 2426 kisses the indictment goodbye
Pub. L. No. 105-314, § 103, 112 Stat. at 2976; adds 18 U.S.C. § 2426, which
provided a definition of "State" for the purposes of that section. Under Chapter 117,
Transportation For Illegal Sexual Activity And Related Crimes §2426(b)(2) the term
"State" means a State of the United States, the District of Columbia, and any
commonwealth, territory, or possession of the United States. This clearly demonstrates
that “any commonwealth, territory, or possession of the United States” will be equated
to a state for purposes of the chapter. Congress did intent to define that states,
commonwealth and territories be treated equally under the section, this should be
construed as a general indicator that Congress also wanted to upheld the exceptional
status of Puerto Rico by treating it as a State of the Union. If Congress would have
wanted §2423(a) to specifically apply to Puerto Rico if would have specifically added the
word “Puerto Rico” to the statute.

IV. Conclusion
Absent specific evidence or clear policy reasons embedded in §2423(a) that
demonstrate a statutory intent to intervene more extensively into the local affairs of
post-Constitutional Puerto Rico than into the local affairs of a state there is no

Page 14 of 15

Case 3:16-cr-00206-DRD Document 169 Filed 04/25/18 Page 15 of 15

APP 108
jurisdiction of this Court to charge defendant under that section. The indictment as
charged cannot stand when submitted to the pressure analysis of Cordova, and the
Court must dismiss it as previous opinions relied on the past analysis of Crespo.

WHEREFORE, it is respectfully requested from the Honorable Court to DISMISS
the present indictment for lack of jurisdiction.
RESPECTFULLY SUBMITTED.
In San Juan, Puerto Rico, this 25 day of April 2018.
I HEREBY CERTIFY: That I on this same date electronically filed the foregoing
document with the Clerk of Court for the District of Puerto Rico, through the CM/ECF
electronic filing system, which will provide notification of this filing to the United States
Attorney’s Office for the District of Puerto Rico.

S/ALLAN AMIR RIVERA FERNÁNDEZ
Allan Amir Rivera Fernández
USDC-PR 301904
LUIS RAFAEL RIVERA LAW OFFICES
CAPITAL CENTER BLDG. SUITE 401
239 ARTERIAL HOSTOS AVENUE
SAN JUAN, PUERTO RICO 00918
PHONE: (787) 763-1780
FAX: (787) 763-2145
E-MAIL:
luiswichyrivera@hotmail.com
allan.a.riverafernandez@gmail.com

Page 15 of 15

